SUPREME COURT OF ILLINOIS
SUPREME COURT BUILDING
200 East Capitol Avenue
SPRINGFIELD, ILLINOIS 62701-1721
(217)782-2035
FIRST DISTRICT OFFICE
160 North LaSalle Street, 20th Floor
Chicago, IL 60601-3103
(312)793-1332
TDD: (312)793-6185

September 30, 2020
In re:

In re Marriage of Hany Sayed Abutaleb, petitioner, and Mona
Mohamed Abutaleb, respondent. Leave to appeal, Appellate
Court, Third District.

126136
The Supreme Court today DENIED the Petition for Leave to Appeal in the above
entitled cause.
The mandate of this Court will issue to the Appellate Court on 11/04/2020.

Very truly yours,

Clerk of the Supreme Court

APPENDIX A

NOTICE: This order was filed under Supreme Court: Rule 23 and may not be cited as
precedent by any party except in the limited circumstances allowed under Rule 23(e)(1).
2020IL App (3d) 190572-U
Order filed June 16, 2020

IN THE
APPELLATE COURT OF ILLINOIS
THIRD DISTRICT
2020
In re MARRIAGE OF HANY SAVED
ABUTALEB,
Petitioner-Appellant,
and
MONA MOHAMED ABUTALEB,
Respondent-Appellee.

)
)
)
)
)
)
)
)
)
)

Appeal from the Circuit Court
of the 12th Judicial Circuit,
Will County, Illinois.
Appeal No. 3-19-0572
Circuit No. 16-D-834
The Honorable
Domenica A. Osterberger,
Judge, Presiding.

PRESIDING JUSTICE LYTTON delivered the judgment of the court.
Justices O’Brien and Wright concurred in the judgment.

ORDER
11

Held: Trial court did not abuse its discretion in awarding wife 75% of husband’s 401 (k)
account where parties had few marital assets, wife did not work outside the home
throughout 26-year marriage, and husband had significant nonmarital assets and
greater earning potential.

12

Petitioner Many Abutaleb and respondent Mona Abutaleb were married in 1994. In 2016,
Hany filed a. petition for dissolution of marriage. In 2019, the trial court entered a judgment for
dissolution of marriage. Pursuant to the judgment, Hany was ordered to pay the majority of the
marital debts, each party was awarded one-half of the marital property located in Egypt, and

APPENDIX B

Mona was awarded 75% of Hany’s 401(k) account. Hany appeals, arguing that the trial court
erred in awarding Mona a .majority of his 401 (k) account. We affirm.

13

FACTS

14

Hany and Mona Abutaleb were married in Egypt in 1994. They moved to the United
States in 1997. They had four children together: Ab.A., born in 1998; O.A., bom in 2000; S.A.,
bom in 2002; and ALA., bom in 2004. In 2005, Hany became employed as an engineer for
Caterpillar.

15

In May 2016, Hany filed a petition for dissolution of marriage in circuit court in Will
County in case number 16-D-834. According to the petition, Hany' was 48 years old at the time,
and Mona was 44 years old. Hany still worked as an engineer for Caterpillar, and Mona was not.
employed outside of the home.

16

In August 2016, the trial court entered an order requiring Hany to pay the mortgage and
household expenses on the marital home and pay Mona $2,000 per month for expenses for her
and the children. The court also ordered that the parties not dispose of any marital property
without court approval. Hany stopped paying the mortgage on the marital home in September
2017.

17

Mona filed a counter-petition for dissolution of marriage in February 2018. In June 2018,
Hany filed a motion to dismiss the dissolution proceeding, asserting that Mona had previously
obtained a divorce from an Egyptian court. In August 2018, a foreclosure proceeding was filed in
circuit court in case number 18-CH-1338 for the parties’ marital home. In September 2018, the
trial court granted Many’s motion to dismiss the dissolution proceeding in case number 16-D-834
on comity principles. Mona appealed that, decision. After the dismissal of the dissolution
proceeding,(Hany stopped making; payments to Mona?'
2

If 8

In December 2018, while Mona’s appeal was pending, Mona filed a new action, in circuit
court;, in case number 18-D-2189, seeking to enroll the Egyptian divorce decree. In February
2019, the trial court granted Mona’s petition to enroll. In March 2019, the trial court ordered
Many to pay monthly child support of $930 and maintenance of $2512.17. Hany filed a motion to
reduce his maintenance and child support obligations, which is still pending. In March 2019. a
judgment of foreclosure and sale was entered in case number 18-CH-1338. In July 2019, an
order confirming the Sheriffs sale of the marital home was entered. A deficiency judgment was
entered against Hany in the amount of $15,849.73 in case number 18-CH-1388.

II 9

Also, in July 2019, we issued our decision reversing the trial court’s dismissal of the
dissolution proceedings in case number 16-D-834 and remanded the case to the trial court to
resume dissolution proceedings. In re Marriage of Abutaleb, 2019 IL App (3d) 180559-U. In
August 2019, following a hearing, the trial court allowed counsel for both parties to withdraw.
Both parties proceeded pro se at a three-day hearing in late August 2019.

If io

The evidence at the hearing established that Hany lias worked as an engineer at
Caterpillar since 2005. Jn 2016, his gross income was $160,000.) In 2018, Hany relocated to
Arizona through Caterpillar. Hany contributes to his 401 (k) account, and Caterpillar provides
matching funds. Hany took a $10,000 loan from his 401 (k) account during the dissolution
proceedings. He has since paid back the majority of the loan, but lie still owed approximately
$4,000 at the time of the hearing. Mona testified that the value of Hany5s 401 (k) account was
$261,000 at the time of the hearing.

nil

The parties’ oldest son, Ab.A. is disabled and lives in a group home in Illinois. Hany is
his guardian. The parties’ second oldest child, O.A., is attending college in Arizona and lives
with Hany. Hany testified that he pays for O.A.’s tuition and expenses. .Mona testified that O.A.

3

has student loans. The parties’ two youngest children. S.A. and AJ.A., live in Illinois with Mona
and attend high school.

1 12

Mona has a degree in. commerce. She has never worked outside the home. At the time of
the hearing, she was 49 years old. Mona, S.A. and ALA. continued to reside in the marital home
at the time of the hearing. Hany continued to pay for utilities for the marital home but did not do
so consistently. Hany also paid for cell phones for himself, Mona and each of the children.

1 13

Hany has three vehicles in his name: a 2004 Chrysler Town & Country that O.A. drives
in Arizona, a 2015 Nissan Rogue that Mona drives, and a 2017 Mercedes that he drives. The
2004 Chrysler has no loan and, according to Hany, has a value of approximately $500. The
outstanding loan for the Nissan Rogue is $5,661, and the monthly payment is $399. Mona, has
never made any payments on the vehicle. Hany stopped making payments on the vehicle in
September 2018. Hany obtained the Mercedes in September 2017, after making a $5,000 down
payment from funds he received from his brother. His monthly payment for the Mercedes is
almost $1,000. Harry still owes $40,203 on that vehicle. Hany pays car insurance for all three
vehicles. Mona has one vehicle in her name, a 2007 Matrix. The vehicle is in Egypt and has a
value of approximately $9,000. She reported the vehicle stolen when she traveled to Egypt and
found that it was not where she left it.

1H

The parties own several properties in Egypt. In 1991, before the parties’ marriage, Hany
purchased property in Orabi for approximately $50,000. In 1992 and 1993, Hany made
improvements to the property. Mona testified that Hany transferred the Orabi property to her in
2009. Hany disputes that, claiming that Mona fraudulently transferred the property to herself. In
2016, Hany sold the Orabi property’ to his brother for $5,000, which Hany admitted was not the
property’s fair market value. Hany testified that he sold the property to his brother with the

4

understanding that if he needs financial assistance, he can ask his brother. Hany estimated that
the value of the Qrabi properly is (approximately $1.2 million. Many's brother sold the Orabi
property in 2017 for approximately $733,590. Hany also owns property in Alexandria that he
obtained prior to marriage. That property has a value of $60,000 to $70,0000.

1115

The parties purchased an apartment in Asala/Giza in 1995. Mona valued it at
approximately $40,000. They also purchased an apartment in Marwa in 2002, which Mona
estimated is worth approximately $40,000. In 2002, Hany and Mona purchased an apartment in
A1 Rehab for 221,300 Egyptian pounds. In 2008, Hany sold the Al Rehab apartment to his uncle
for 100,000 Egyptian pounds. In 2007, the parties purchased a villa in AJ Rehab for 13,294,451
Egyptian pounds. In 2008, Hany sold the Al Rehab villa for 200,000 Egyptian pounds. Mona
disputed that the transfer of the Al Rehab villa was valid.

116

Hany testified that he and his family owned an apartment in Dokki prior to his marriage
to Mona.. Hany claimed that: property was sold in 2006, and the proceeds of the sale were placed
in a bank account owned by Mona. Hany claims that Mena converted those funds for her own
use, and he instituted an action against Mona in Egypt to attempt to recover the funds. Both
parties testified that they had no bank accounts in Egypt.

•

117

Each party presented evidence regarding credit card debt. Mona testified that she has an
American Express credit card with a balance of $10,025.27. She testified that she used that credit
card for household expenses during the dissolution proceedings. Hany presented evidence of the
balances of several credit cards in his name, totaling $38,080.92.

H18

(In September 2019, the trial court entered a judgment for dissolution of marriage. With
respect to the real property located in Egypt, the trial court found that it had “insufficient
information to distribute” the Al Rehab apartment, the Al Rehab villa, and the Asala/Giza

5

apartment. The court found the Marwa property to be marital property and awarded one half to
each party. Regarding the Orabi property, the court found it had “insufficient information to
characterize or distribute any interest in the property as marital or nonmaritai” but found that “at
a minimum, Many has a significant source of income from the property.”
If 19

With respect to the vehicles, the trial court awarded Mona, the Chrysler and Nissan,
including the debt of $5,661 on the Nissan. The court also awarded Mona the Matrix in Egypt, if
located, and/or any insurance she receives as a result of its alleged theft. The court awarded Hany
the Mercedes, including the debt of $40,203 on that vehicle.
The court awarded each party the personal property in their possession, as well, as tire
bank accounts in each of their names. (The court awarded Mona 75% of the value of Hany’~s)
(401 (k) account ;as of the date of the dissolution judgment and assigned Hany the loan debt on the
IRA account.

f 21

The court assigned Mona the debt for the water, sewer, electric, internet, cable and gas
bills for the marital home and ordered Hany to transfer those bills to Mona’s name. The court
ordered Hany to pay Mona’s credit card debt of $10,025.27, as well as his own credit card debt
of $38,080.92. The court also assigned Hany the debt for phone services but stated that Hany
was not obligated to maintain, phone service for Mona, the children or the marital, home. Finally,
the court assigned the deficiency judgment of $15,849.73 on the marital home to Hany, finding
that he “willfully failed to pay the mortgage and take all necessary steps to potentially modify the
same as ordered by the Court.”

22

The court held that because of the geographical distance between the parties, Mona is the
“dfe facto primary caregiver for the minor children.” The court, therefore, awarded all parenting
time for the two minor children to Mona and ordered that Hany be granted parenting time by

6

agreement of the parties. The court ordered that the parties “equally share decision-making as to
education., religion, extra-curricular activities, and health.” The court declined to address any
child support or maintenance issues, stating that “such matters have been, and therefore must be,
addressed in 18[-]D[-]2189.”

1 23
"jj 24

ANALYSIS
Hany argues that the trial court abused its discretion in awarding Mona 75% of the value
of his 401(k) account, particularly in light of the substantia] debt he was assigned in the
dissolution judgment. He also contends that the trial court erred in considering the value of the
Orabi land in its distribution of marital assets.

125

Pension and 401(k) benefits earned, during marriage are marital, property. In re Marriage
of Hamilton, 2019 IL App (5th) 170295, *ft 91; In re Marriage of Smith, 2012 IL App (2d)
110522,

1 72. Section 503(d) of the Illinois Marriage and Dissolution of Marriage Act (Act)

provides that marital property shall be divided in “just proportions” considering all relevant
factors. 750 ILCS 5/503(d) (West 2018). Section 503(d) of the Act sets forth the following 12
factors that the trial court should consider in making its determination:
“(1) each party’s contribution to the acquisition, preservation, or increase or
decrease in value of the marital or non-marital property-, including the
contribution of a spouse as a homemaker or to the family unit;
(2) the dissipation by each party of the marital or non-marital property;
(3) the value of the property assigned to each spouse;
(4) the duration of the marriage;
(5) the relevant circumstances of each spouse when the division of property is to
become effective;

(8) the age, health, station, occupation, amount and sources of income, vocational
skills, employability, estate, liabilities, and needs of each of the parties;
(9) the custodial provisions for any children;
(10) whether the apportionment is in lieu of or in addition to maintenance;
(11) the reasonable opportunity of each spouse for future acquisition of capital
assets and income; and
(12) the tax consequences of the property division upon the respective economic
circumstances of the parties.” Id.

f 26

“The touchstone of apportionment of marital property is whether the distribution is
equitable in nature.” In re Marriage of Schmidt 242 Ill.App.3d 961, 966 (1993). Mathematical
equality is not required, as Illinois law holds that the term “just proportions” does not necessarily
mean equal amounts. Id:, see In re Marriage of Doty, 255 Ill. App. 3d 1087, 1097-98 (1994)
(proportional asset division does not require equal division).

127

A trial court's decision on the ultimate distribution of marital property lies within the
sound discretion of the trial court and will be reversed only for an abuse of discretion. In re
Marriage of PoIsky, 387 Ill.App.3d 126, 135 (2008). An abuse of discretion occurs only if the
record shows the trial court acted arbitrarily without employing conscientious judgment, or, if in
view of all circumstances of the case, the trial court exceeded the bounds of reason so that no
reasonable person would take the trial court's view. In re Marriage of Siddens. 225 Ill.App.3d
496, 500 (1992).

f 28

In dividing marital property, the trial court may consider each party’s ownership of
nonmarital assets. See In re Marriage ofJoyni, 375 Ill. App. 3d 817, 822 (2007). “[A] trial court
8

is justified in awarding almost all of the marital property to one spouse if the other spouse has
substantial nonmarital assets.” In re Marriage ofGattom, 317 Ill. App. 3d 346, 355 (2000); see
In re Marriage of Holman, 122 Ill. App. 3d 1001, 1011 (2000) (finding that wife’s significant
nonmarital property' justified court’s award of majority of marital property to husband). This is
particularly true when the spouse with significant nonmarital assets also has a. higher income and.
greater earning potential. See Joynt, 375 111. App. 3d at 822; see also In re Marriage of
Stephenson, 121 III. App. 3d 698, 699 (1983) (holding that trial court properly granted 75% of
marital estate to wife where husband had substantial nonmarital assets and “vastly greater
opportunity for the future acquisition of assets and income”).

1129

Additionally, granting one party substantially more marital property than the other is not
an abuse of discretion where the party receiving the majority of assets has been unemployed for
much of the parties’ lengthy marriage and has less earning potential. See In re Marriage of
Orlando, 218 III. App. 3d 312, 320-21 (1991) (awarding wife two-thirds of marital estate was
warranted where marriage was 46 years long, wife did not work: for most of marriage and her
income was much less than husband’s); see also In re Marriage of Madoch, 212 Ill. App. 3d
1007, 1016 (1991) (increasing wife’s share of marital estate to 75% where wife had limited
employability and sources of income compared to husband); In re Marriage of Gentry, 188 III.
App. 3d 3 /2, 375-76 (1989) (finding no abuse of discretion in court’s award of 66% of assets to
wife who had been a homemaker for nearly 20 years); In re Marriage ofAgazim, 176 III. App.
3d 225, 232 (1988) (upholding 76/24 division of assets in favor of wife where husband was
principal wage earner throughout the marriage and wife's wage earning capacity was
significantly less than husband’s); In re Marriage of Hanson, 170 III App. 3d 298, 303 (1988)
(affirming 70/30 division of assets in favor of 49-year-old wife after a 28-year marriage,

9

where wife had no employment experience in over 20 years); In re Marriage of
McNeeley, 111 III. App. 3d 320, 326 (1983) (finding no abuse of discretion where trial court
awarded approximately 60% of assets to 53-year-old wife who did not work outside the home
throughout 32-year marriage).

130

Here, at the time of dissolution, the parties had a great deal of marital debt and few
marital assets. The court ordered Hany to pay the majority of the parties' debt and awarded
Mona a majority of the marital assets, including three of the four vehicles, one half of the Marwa
property, and 75% of Hany’s 401 (k) account In making its distribution, the trial court noted that
Many had “a significant source of income from the [Orabi] property.”
Based on the facts and circumstances presented in this case, the trial court’s distribution
of marital property, including Hany’s 401(k) account, was equitable. The evidence established
that Hany has been the sole breadwinner for his family since he and Mona married in 1994. He is
(currently earning at least $160,000 per year,; while Mona has no income and never worked
outside the home during her 26-year-marriage to Hany. While Mona has a degree in commerce,
her earning capacity as a 49-vear-old who has been out of the labor market for more than 20
years is much lower than Hany’s. Additionally, Hany has significant nonmarital property,
including the proceeds from the sale of the Orabi property, as well as other real estate in Egypt.
In light of these facts, the trial court’s decision to award Mona 75% of the value of Hany ’s
401 (k) account at the time the dissolution judgment was entered was not an abuse of discretion.

"ft 32-

CONCLUSION

1133

The judgment of the circuit court of Will County is affirmed.

134

Affirmed.

10

IN THE CIRCUIT COURT OF THE TWELFTH JUDICIAL CIRCUIT
WILL COUNTY, ILLINOIS
IN RE: THE MARRIAGE OF:

)
)
)
)
)
)
)
)
)
>
)

Hany Abutaleb,
Petitioner and Counter-Respondent
vs.
Mona Abutaleb,
Respondent and Counter-Petitioner

oo
i..i *

-ra
° i>

T»

no

::p
t - 7"/

No.

16 D 834

m

o

CJl

JUDGMENT OF DISSOLUTION OF MARRIAGE
THIS CAUSE COMING TO BE HEARD for ruling on the divorce petition filed by Mona
Abutaleb as counter-petitioner in this matter, following the reversal by the Illinois Appellate
Court of this Court’s September 2018 grant of Many’s motion to dismiss this proceeding. Each
party is now self-represented. The Court, having heard evidence in February 2018 and August
2019, having reviewed the pleadings, and having heard argument, finds asfollows:
1. Hany filed the initial petition on May 17, 2016. Mona filed a counter-petition on
February 2, 2018. Hany also filed a petition to declare the marriage invalid on December
19, 2016, which he never set for hearing before the Court.
2. Hany and Mona were married in Egypt, on June 25, 1994.
3. Four children were born to the.parties. AWA was bom in July 1998. AWA is disabled
and Hany has guardianship of AWA under 16 P 7,83. OA, a boy, was born in June 2000
and is now emancipated. SA, a girl, was bom in August 2002. AHA, a boy, was born in
October 2004. No other children were bom to or adopted between the parties.
PROCEDURAL HISTORY OF THIS CASE
4. Oh October 20, 2017, Hany filed a motion to bifurcate the proceeding asking the Court to
divorce the parties, address the issues as to American property and support, and to reserve
the issues of the distribution of Egyptian property held by the parties. Mona objected.
This Court granted the motion on November 14, 2017.
5. Trial on this matter began on February 13,2018. On February 15, 2018, this Court, on its
own motion, recessed the trial and vacated its order of bifurcation. This Court, having
heard the evidence and the arguments of Mona’s then-counsel, in particular, reasoned that
Mona’s request for property and maintenance depended heavily on whether the land in
Egypt was marital property that could be allocated as such, whether it had significant
value, and whether Hany had a hidden income stream related to the property. Because
1
APPENDIX C
REQUEST RECEIVED ON-ABUTAHS20l^4ST.^S%0^8?Q^p ^>4:OC^N£f>OCyMK£r Sqg£l££D 01^0^/2020 02:00:03 PM # 17197183403

the parties had not fully prepared to present evidence as to the foreign property, which
would require the use of certain expert witnesses, given the relevance of Egyptian
property law and the language and translation issues inherent in same, the Court
continued the trial, which was eventually scheduled for June 28, 2018, and allowed for
further trial preparation and discovery.
6. On June 25, 2018, Hany filed a motion to dismiss this case, arguing that Mona, as a
plaintiff in a foreign proceeding, had obtained a divorce decree in Egypt from a civil
court on April 30, 2018. Hany had filed this case in May 2016. Mona filed the Egyptian
divorce proceeding in November 2016. She filed a counter-petition here in February
2018.
7. On June 28,2018, this Court held an evidentiary hearing on the motion. The parties filed
written arguments thereafter. On August 31, 2018, the Court heard additional oral
argument regarding same.
8. On September 14, 2018, this Court issued a written order granting the motion to dismiss.
This Court afforded comity to the Egyptian decree and found that Mona was estopped
from challenging Many’s comity request. See Perrin v. Perrin, 408 F.2d 107, 109, 111
(3d Cir. 1969) (“It follows that plaintiff may not in this proceeding be heard to deny the
validity of the Mexican divorce decree”); see also Diehl v. United States, 438 F.2d 705,
708-09 (5lh Cir. 1971) (“it was settled in Texas that a party who seeks and obtains a
Mexican divorce is thereby estopped to deny its validity under the circumstances
described in that opinion”); see also Weinberg v. Todd Shipyards, 97 N.J. Super 289, 293
(App.Div. 1967) (“Further, were Shirley to attempt to assert a claim that she is Louis’
widow, she would be estopped from attacking the validity of the Mexican divorce which
she obtained and on the basis of which she remarried.”); see also Application of Holland,
540 N.Y.S.2d 803 (1989) (“claimant instituted, by her own counsel, the Haitian divorce
proceeding and personally appeared therein).
9. On September 19, 2018, Mona filed a notice of appeal from the dismissal order.
10. Mona did not seek to stay the dismissal order pending appeal.
11. On November 30, 2018, Mona filed a motion entitled “enroll of foreign judgement” in
this case.
12. On December 20, 2018, this Court issued a written ruling denying the November 20,
2018, motion.
PROCEDURAL HISTORY OF 18 D2189
13. On December 24, 2018, Mona filed a “petition to enroll foreign judgment” under case
number 18 D 2189. That case is assigned to Judge Dow.
14. On February 27,2019, Judge Dow granted the petition to enroll in 18 D 2189.
2

REQUEST RECEIVED ON-ABUTAHS2.0

^04:063MVJifjQC^1E^T.SlgfJi^D 0$M>f/g9/2020 02:00:03 PM # 17107183403

15. On March 27, 2019, Judge Dow ordered Many lo pay Mona child support in the amount
of $930 per month and maintenance in the amount of $2,512.17 per month. A
withholding order was entered in 18 D 2189.
16. On May 13, 2019, Judge Dow denied, inter alia, a motion by Hany in 18 D 2189
requesting that Mona be ordered to cooperate with a broker provided by Hany’s employer
for the purpose of selling the marital home.
17. A motion to reduce maintenance and child support is currently pending before Judge
Dow in 18 D 2189.
18. Neither party has appealed any of Judge Dow’s orders in 18 D 2189.
FURTHER PROCEDURAL HISTORY OF THIS CASE
19. On July 19, 2019, this Court’s dismissal order was reversed and the mandate was issued
instanter.
20. On August 12, 2019, following a lengthy hearing, this Court allowed each counsel for the
parties to withdraw. Neither party objected thereto and each indicated a desire to proceed
as a self-represented litigant.
21. Further trial proceedings were held on August 26, 27, and 28, 2019.
took this matter under advisement.

This Court then

PROCEDURAL HISTORY OF 18 CH 1338
22. Meanwhile, on August 17, 2018, a foreclosure proceeding was filed under case number
18 CH 1338 as to the parties’ marital home located at 2373 River Hills Lane,
Bolingbrook, Illinois 60490. That case is now assigned to Judge Rickmon.
23. A judgment of foreclosure and sale was entered by default on March 19,2019.
24. On June 10, 2019, Mona’s motion to vacate the default judgment of foreclosure in 18 CH
1338 was denied.
25. On June 18, 2019, Mona’s motion to stay the sale of the home in 18 CH 1338 was
denied.
26. On July 23, 2019, Mona’s second motion to stay the sale of the home in 18 CH 1338 was
denied as moot.
27. On July 30, 2019, an order confirming the Sheriffs sale was entered in 18 CH 1338. A
personal deficiency judgment was entered against Hany (not Mona) in the amount of
$15,849.73.
3
REQUEST RECEIVED ON-ABUTAHS20g^n;;Nef-^/?.5<2^’y^:04:Q%AIj^DQC^va§IT.S,^P^D qfMgg9/202O 02:00:03 PM # 17197183403

28. On July 31,2019, Mona filed a notice of appeal in 18 CH 1338.
29. On August 16, 2019, Mona filed a motion to stay the sale and eviction order in 18 CH
1338 pending appeal.
3Q. On August 19, 2019, Judge Rickmon continued Mona’s motion to stay pending appeal
for status to September 24,2019.
SUMMARY OF CERTAIN RELEVANT FACTS
31. Mona lived in the marital home during the course of these proceedings and continued to
reside in the marital home with the two minor children as of the end of trial on August
28, 2019.
32. Hany works as an engineer for Caterpillar Inc., and he was transferred from Illinois to
Arizona during this proceeding. He has resided in Tuscon, Arizona since July 2018.
33. The eldest child, who is disabled, lives in a group home in Illinois. As noted above,
Hany is his guardian.
34. The second eldest child, OA, attends college in Arizona Mona does not pay for any of
OA’s college expenses. Hany pays for OA’s college expenses, though there is no court
order mandating that he do so.
35. Mona has a four-year degree from an Egyptian college in the field of commerce or
accounting, but she has never worked outside of the home.
36. There was an order of protection in effect against Many under 16 OP 911 from May 11,
2016, through June 1, 2016. Hany consequently did not live in the marital home. He
resided in a bote! for a time, and he then moved into a second home that the parties
owned as rental property. That home was sold during the pendency of these proceedings.
37. Shortly after this matter was filed, Hany was ordered to pay the marital bills “to the best
of his ability with the parties understanding that he is currently paying for a hotel.” See
order of May 18, 2016, as modified by order of May 19, 2016, providing that all bills
must be paid by agreement or by order of the Court.
38. On May 19, 2016, Mona was ordered to return $25,000 to Hany’s personal bank account
due to her forging a check in Hany ’s name to obtain said funds.
39. On July 14, 2016, Hany filed a motion to sell the marital residence.
2016, Mona filed an objection to the motion.

On September 2,

40. On August 2, 2016, Hany was expressly ordered “to pay the mortgages and household
expenses on both marital homes in Illinois as previously ordered by this Court.” Hany
4

REQUEST RECEIVED ON-ABUTAHS2U!|lf

gS)4:Uf^\I'.p>OCIf|I^T SUffl^D OftV|^!/2020 02:00:0? PM # 17197183403

was also ordered to provide Mona $2,000 per month for her expenses by way of her use
of an American Express card and cash. Further, the parties were ordered not to dispose
of any marital assets without permission of the Court.
41. On December 19, 2016, Hanv was enjoined from using marital funds to pay counsel in
Egypt regarding litigation in that country as to certain alleged marital assets.
42. Throughout the course of this matter, numerous pleadings were filed by both parties
pertaining to their use of passports and travel to Egypt to address various legal matters
pending in that country’ as to alleged marital property,
43. Throughout the course of this matter, numerous motions for contempt and sanctions were
filed by the parties against each other.
44. At trial, both parties agreed that Many stopped paying the mortgage on the marital home
in September 2017.
45. On October 6, 2017, Hany tendered $2,000 to Mona in open court via check for
maintenance.
46,. On November 28, 203 7, Hany filed a second motion to sell the marital home.
47. On January 16, 2018, Hany was ordered to pay a deficiency in a loan on a 2015 Nissan
Rogue in order to avoid repossession of the car. At the continued trial in August 2019,
the parties agreed that there is a current deficiency on the car, which Mona drives, and
that it may be repossessed. At trial, Hanv continually referred to the Nissan as “his” car.
The monthly payment is $399. Mona has never made a payment toward the Nissan.
Hany stopped the monthly payments after the dismissal order in September 2019.
48;. Meanwhile, in September 2017, the month that he stopped paying the mortgage, Hany
purchased a new Mercedes Benz automobile. The base price of the car was $54,000.
Hany made a $5,000 down payment on the car from money that he received from his
brother in Egypt, Hany makes monthly car payments of just under $1,000 toward the
Mercedes, which he drives in Arizona. Hany still owes about $40,000 for the car.
49. Hany also owns a 2004 Chrysler, which is paid for. It is in Arizona and Hany lets OA
drive it.
50. Hany pays for the car insurance for the Chrysler. Nissan, and Mercedes.
51. Mona owns a 2007 Matrix, which is in Egypt, though she. does not know where it is and
believes it to be missing. She estimates its value to be about $9,000. In 2017, she
reported to the Egyptian authorities that was stolen.
52. Hany did not pay Mona any maintenance after the dismissal of this case in September
2018 until Judge Dow ordered him to so pay in March 2019 in 18 D 2.189.
5
REQUEST RECEIVED ON-ABUTAHS20Igf .fgT/iegiCggSjgOf) .^4:06f^^CCi§gHfr SUfgl^fD OJfe^g)/2'J2U 02:00:03 PM # 17197183403

53. Mona has never paid any utility bills associated with the marital home. Hany has paid
such bills intermittently, even through the August 2019 trial. Hany likewise still pays
the cell phone bills for the family, albeit inconsistently.
EGYPTIAN PROPERTY
54. Both parties presented testimony and documentary evidence regarding certain Egyptian
property at the trial proceedings in August 2019. Neither party offered objections as to
foundation or admissibility of same. Still, the record on Egyptian property is not a model
of clarity.
55. The Court found neither Mona nor Many’s testimony as to the acquisition or disposition
of the Egyptian property to be particularly credible. The Court will summarize the
evidence as best it can.
56. Orabi Land Villa This is an 8-acre property with housing on it. Mona Exhibit “N. ”
Hany sold the property to his brother, Hesham Abutaleb, in 2016 for 100,000 Egyptian
pounds. Mona Exhibit “B. ” Hany told this Court that the property was actually worth
about $1.3 million U.S.' dollars at the time, and that he did not sell it at face value. He
acknowledged that he sold it to his brother with the expectation that his brother would
take care of him financially in the future. He acknowledged that his brother gave him the
$5,000 payment for the Mercedes as a result of this transaction. He denied receiving any
regular payments from his brother from the property. In 2017, Hany’s brother Hesham
Abutaleb sold the property to Mohammed AI-Naggar for 13 million Egyptian pounds,
which, using the current exchange rate, is valued today at $795,080. It is not clear to the
Court whether the entire property or only a portion was sold. Mona Exhibit "C. ” Mona
views this sale as a sham and argues that Hany is hiding marital property. Hany replies
that he acquired the property before the parties were married using funds that he inherited
from his father and that it should be characterized as non-marital property. This Court
finds that, at a minimum, Hany has a significant source of income from the property. But
the Court has insufficient information to characterize or distribute any interest in this
property as marital or nonmarital and reserves any issue as to same.
57. At Rehab Apartment This apartment was purchased by Mona and Hany in 2002 for
221,300 Egyptian pounds. Mona Exhibit “J. ” But in 2008, it was sold to Hesham
Mohammed Abdelmonem Almahdi, apparently Hany’s uncle, for 100,000 Egyptian
pounds. See Mona Exhibit "U. ” Mona disputes whether this sale was valid under
Egyptian law. The change in price is remarkable. Hany insisted at first that the property
still belonged to the parties, since they were allowed to use it, but he conceded that title
was transferred to his Uncle. The Court has insufficient information to distribute this
property and reserves any issue as to same.
58. Al Rehab Villa This villa was purchased by Mona and Hany in 2007 for 13,294,451
Egyptian pounds. See Mona Exhibit “I.” But in 2008, it was sold to Retired Major
General Nabil Ahmed Bayoumi Eissa for 200,000 Egyptian pounds. See Mona Exhibit
6

REQUEST RECEIVED ON-ABUTAHS2OI2g/^r>KE^O^8/?O5_ig4:O6f_M4OCU0E^' SUffjgp OTg7flS/2020 02:00:03 PM # 17197183403

“T. ” Mona disputes whether this sale was valid under Egyptian law. The change in
price is also certainly remarkable. Hany insisted at first that the property still belonged to
the parties, since they were allowed to use it, but he conceded that title was transferred.
The Court has insufficient information to distribute this property and reserves any issue
as to same.
59. Makkah Street Apartment, Giza This apartment was purchased by Mona and Hany in
1995 for 92,000 Egyptian pounds. Mona Exhibit “H. ” In 2006, Hany apparently
authorized its sale. It is unclear to the Court whether it was sold and for what price.
Mona Exhibit “R. ’’ The Court has insufficient information to distribute this property and
reserves any issue as to same.
60. Marwa Village Apartment This apartment was purchased by Mona and Hany in 2003
for 195,000 Egyptian pounds. Mona Exhibit “G. ” The Court finds this property to be
marital property and awards one half to each parly.
61. Many’s lawsuit against Mona There is a pending lawsuit in Egypt in which Hany is
suing Mona for money that he claims she wrongly acquired when a property in Hany’s
family was sold around 2006. There is no judgment, so this Court cannot characterize
whether comity should be afforded to the matter nor whether any money judgment should
be deemed marital or nonmarital property. The Court declines to enter any orders
regarding same.
EFFECT OF 18 D 2189 ON THE PROPRIETY OF THIS PROCEEDING
62. This Court asked the parties to present argument on the impact of the fact that Mona
enrolled the Egyptian judgment in case 18 D 2189 while this matter was on appeal.
63. Mona argued that this Court told her to do so—which is untrue. This Court noted that
Mona could so seek to enroll her judgment, but did not advise her to do so nor advise her
as to what the legal consequences of doing so would be on this proceeding. Mona’s
backup response to the Court’s inquiry was that she enrolled the judgment to obtain some
sort of order for monetary support and property division from the Illinois courts. When
the Court inquired as to why Mona did not simply ask to stay the dismissal in this case
pending appeal, Mona had no real answer other than she did not know what else to do. It
is obvious to the Court that Mona gave no real consideration as to the legal effects of her
filing decision.
64. Many’s response to the Court was likewise unhelpful. He said that he would like the
Court to enforce the dismissal order of September 2018. This Court informed Hany that
his opportunity to argue that point was in the Appellate Court, where he apparently filed
no pleadings before the decision was issued.
65. The Court’s concern as to the filing and existence of 18 D 2189 is two-fold: One, does
judicial estoppel preclude Mona from taking inconsistent positions in these two cases
regarding the validity of her Egyptian divorce? Indeed, the Court notes that, at trial in
7
REQUEST RECEIVED ON-ABUTAHS2012$g)\§j3V£T27(j§?/:j62?|l|g4:06 ^ d£jbCU jjtfctfjj StlPfflfgl ON©/|«f2020 02:00:03 PM # 17197183403

August 2019, when cross-examining Many, Mona expressly referred to the Egyptian
divorce proceeding as her divorce and a case that she filed. This reference was also
inconsistent with her various 2019 assertions to this Court that she never wanted the
Egyptian divorce and that it was initiated against her wishes by her father. And even that
point differs from her position at the motion to dismiss in 2018. There, she maintained
that the Egyptian divorce was solely to confirm a religious divorce and she needed the
protection from Hany that a civil divorce decree might give her. Second, does res
judicata preclude this Court from addressing the issues of child support and
maintenance?
66. Judicial estoppel precludes a party from succeeding in one argument On a case and then
relying on a conflicting argument to succeed in another proceeding on the case. See New
Hampshire v. Maine, 532 U.S. 742, 749 (2001). Judicial estoppel is “an equitable
doctrine” that may be invoked in the Court’s discretion. New Hampshire, 532 U.S. at
750. One factor to consider is whether accepting inconsistent positions by a party poses a
threat to judicial integrity by creating the impression that the first or second court was
misled. Id. at 751. There is no exhaustive test to determine whether to apply judicial
estoppel. Id.
67. The doctrine of res judicata takes the form of claim preclusion—barring successive
litigation of the same claim—and issue preclusion—barring successive litigation of an
essential issue or fact. Id. at 748.
68. Taking its cue from the findings of the Appellate Court’s order of July 19, 2019, this
Court finds that equity mandates that this Court not apply judicial estoppel to preclude
Mona from seeking a divorce decree in this case, 16 D 834, despite her enrollment of the
Egyptian decree in Will County under 18 D 2189.
69. But this Court finds that the child support and maintenance orders in 18 D 2189 bar
relitigation of same in this case due to res judicata.
ALLOCATION OF EXISTING PROPERTY
70. No dispute was presented as to personal property, save the existence of the contents of a
safe in Egypt that is now allegedly missing. The Court finds that insufficient evidence of
the existence of the safe and its contents was presented to the Court and declines to
distribute same between the parties.
71. Each party is otherwise awarded the personal property in his or her possession.
72. Mona is awarded the Nissan and the Chrysler, and is assigned the debt of $5,661 on the
Nissan. See Hany Exhibit “C. ” Hany is ordered to cooperate in transferring interest to
Mona within 30 days of today.
73. Mona is awarded the Matrix in Egypt, if located, or any interest therein that may result in
any insurance payment for the alleged theft.
8

REQUEST RECEIVED ON-ABUTAHS201 2§g\^.^T57^/J02f I ®]4:06 fMJpCUfpRJ' SUJt§.f$> ON§07/|%2020 02:00:03 PM # 17197183403

XU

74. Hany is awarded the Mercedes and is assigned its attendant debt of $40,203.
75. The Court expressly notes that it does not order that Hany maintain automobile insurance
for the vehicles awarded to Mona.
76. The parties are each awarded the bank accounts in his or her name. Hany is expressly
awarded Chase accounts #5938 ($547) and #2112 (72.10), which he jointly holds with his
children OA and SA.
77. Per Mona’s testimony, Many’s 40IK account is valued at approximately $261,000. He
has a small loan against the account of an unknown amount. Hany is assigned the loan
debt as to his 40IK. Mona is assigned 75% of the equity in the 40IK account as of its
value today. Hany is ordered to cooperate with the preparation of any division orders to
effectuate same.

ALLOCATION OF DEBTS OTHER THAN CARS
78. The debt for the water, sewer, electric, internet, cable, and gas bills for the marital home
is assigned to Mona. Hany is ordered to transfer said accounts to Mona’s name or close
same within 30 days. If the accounts are closed, Mona is ordered to reimburse Hany for
any outstanding bills, upon presentation to Mona by Hany of same, by December 31,
2019.
79. Hany is assigned the debt for Mona’s American Express card, #62004, of $10,025.27,
which was used for household maintenance purposes during this proceeding. Mona
Exhibit “K" and “L. "
80. Hany is assigned the debt for phone services. The Court expressly notes that it does not
order that Hany maintain phone service for Mona, the marital home, or the children
following the entry of this order.
81. Hany is assigned all the debt in his name, as set forth in the credit report introduced into
evidence as Hany Exhibit “C, ” with the exception of the Nissan debt. (Barclays, $1789,
Best Buy $1742, Mercedes, $40,203, PNC $381, JPMCB $15,609, MMCA/Ci $705).
see also Hany Exhibit “D” as to PNC Visa #2421 debt.
82. Hany is assigned the credit card debt of Chase Marriott Visa #9872 ($17,109.87.) Hany
Exhibit ‘B."
83. Hany is assigned the credit card debt of Frontier Mastercard #5670 ($745.05) Hany
Exhibit “E. "
84. The value of the Bolingbrook home was disputed by the parties. Mona estimated its
value at $389,000, based on an internet search. The lender purchased the home at the

9
REQUEST RECEIVED ON-ABUTAHS20I2^^.I^T*^^ji/292(^2^:06 AJ4 {$>GSJ!$gNS§S«P|i|i@| ON §9^020 02:00:03 PM # 17197183403

'-'7

*

judicial sale for $287,820 on June 20. 2019.
interest rate of 3.875%. Mona Exhibit "M. ”

The loan in 2011 was for $292,395, at an

85. Hany is assigned the deficiency judgment of $15,849.73 entered in 18 CH 1338.
ALLOCATION OF PARENTING TIME AND RESPONSIBILITIES
86. The Court has considered the statutory factors as to parenting time and responsibility.
There does not appear to be a real dispute between the parties on this score. Due to the
differing locales of the parties, Mona is the de facto primary caregiver for the minor
children. Despite their personal differences, Mona grants Hany ample parenting time
with the children when he travels to Illinois.
87. The Court therefore awards all parenting time for the two minor children to Mona, and
orders that Hany be afforded parenting time by agreement of the parties. The Court
orders that the parties equally share decision-making as to education, religion, extra­
curricular activities, and health.
88. The Court declines to address any issues as to child support, including health insurance,
as such matters have been, and therefore must be, addressed in 18 D 2189.
PETITION FOR RULE TO SHOW CAUSE ON MORTGAGE
89. The Court finds that Hany willfully failed to pay the mortgage and take all necessary
steps to potentially modify same as ordered by this Court. The home is now lost to
foreclosure, there is no equity in the home, and Hany has been assigned the deficiency
judgment. The Court also notes, however, that at trial it was established that Mona
refused to cooperate with the relocation services offered by Caterpillar when Hany was
transferred to Arizona, and that cooperation may have resulted in a more favorable
financial situation for both parties. See Hany Exhibit "H," regarding expiration of
relocation benefits.
90. Both parties told the Court that, the foreclosure and purchase by the tender at the sheriffs
sale notwithstanding, the lender has offered to negotiate a refinance or purchase of the
home. Mona has stated that she intends to seek same, though it is unclear to the Court as
to whether that is a financially prudent decision for her. The Court also notes that Mona
has appealed the decision of the foreclosure court, so perhaps she will have further
recourse in that matter. Should the foreclosure and sale be reversed, Mona is awarded all
interest in the home (which the Court values in the negative) and Hany is ordered to
quitclaim any interest in the home to Mona within 30 days thereafter.
91. The Court, in its discretion, declines to find Hany in indirect civil contempt on this issue.
92. Last, Mona seems to think that this Court can order that she be allowed to remain in the
home while her children complete school. This Court has no such authority. The
propriety of Mona’s possession of the home is in the hands of the foreclosure court, and,
10
REQUEST RECEIVED ON-ABUTAHS20!

!$$4:06<|^gpeqjp5r SU$8LSqp Ofp>7{2|/2020 02:00:0? PM * 1719718340?

as of now, Mona has lost her right to possession. Mona must make appropriate housing
decisions for herself and her children now that this judgment is entered.
CONCLUSION
93. For the foregoing reasons, the Court finds that irreconcilable differences have caused an
irretrievable breakdown in the marriage and awards a judgment of dissolution subject to
the conditions outlined above.
!

September 24,2019
©omenica A. Osterberger

a

Trtms.JB: 17197183405

CERTIFICATION
I ANDREA LYNN CKASTEEN, clerk of
THE 12TH -SUSICIM CiRCUIT, WLl
COUNTY, ILLINOIS. CERTIFY THIS
TOSEATRUECOPYOFAN
ORIGINAL RECORD OF THIS CIRCUIT
COURT
07/29/2020
DATE.

gy KLKA'BEKITY Cl.FnK

11

REQUEST RECEIVED ON-ABUTAHS2012g|HS.!^Pf7jg^/?e2^iap|»:06

SyTf®Jfl> ONj»/|S|2020 02:00:03 PM # 17197! 83403

NOTICE: This order was filed under Supreme Court; Rule 23 and. may not be cited as
precedent by any party except in the limited circumstances allowed under Rule 23(e)(1).
2019 IL App (3d) 180559-U
Order filed July 19, 20.19

IN THE
APPELLATE COURT OF ILLINOIS
THIRD DISTRICT
2019
In re MARRIAGE OF
HANY SAYED ABUTALEB,
Petitioner-Appellee,
and
MONA MOHAMED ABUTALEB,
Respondent-Appel lant.

)
)
)
)
)
)
)
)
)
)
)

Appeal from the Circuit Court
of the 3rd Judicial Circuit,
Will County, Illinois.
Appeal No. 3-18-0559
Circuit No. 1.6-D-834

Honorable
Domenica Ann Osterberger,
Judge, Presiding.

JUSTICE WRIGHT delivered the judgment of the court,
justices Holdridge and O’Brien concurred in the judgment.

ORDER

11

Held: The trial court erred by affording comity to the 2018 Egyptian divorce decree.

12

Petitioner, Hany Saved Abutaleb, filed his petition for dissolution of marriage from
respondent, Mona Mohamed Abutaleb. After two years of trial court proceedings, petitioner filed
an emergency motion to dismiss his petition for dissolution because respondent obtained a
divorce decree in Egypt. The trial court granted petitioner’s motion to dismiss on comity
principles. Respondent appeals.

APPENDIX D

13
14

1. BACKGROUND
Petitioner and respondent married on July 7, 1994, in Cairo, Egypt. In 1997, the parties
emigrated from Egypt to the United States. The couple became citizens of the United States, had
four children in the United States, and have remained residents of the United States since 1997.

15

On February 13, 2016. petitioner sent respondent a. “confession for divorce,” which
purported to comply with the requirements for a di vorce under the tenets of Islam. In April 2016,
petitioner conveyed his interest in a disputed marital property, located in Egypt, to petitioner’s
brothers for $5000.

16

Shortly thereafter, petitioner filed a petition for dissolution of marriage in the circuit court
of Will County on May 17, 2016. On this date, the parties’ children were 17, 15, 13, and 11 years
of age. On August 2, 2016, the trial court entered a temporary restraining order and preliminary
injunction, barring the parties from disposing, transferring, or encumbering marital assets located
in the United States and Egypt.1 The trial court also ordered petitioner to pay the mortgages and
household expenses on the marital homes, and to pay respondent $2000 per month in child
support and maintenance.

17

Petitioner’s brothers sold the disputed marital property, including the interest they
acquired from petitioner, in August 2017 for an estimated $300,000 to $400,000. The property is
located in Egypt. According to the record, petitioner received and is due to receive additional
sums of money from his brothers for this transaction. 2

'On July 18, 2018, respondent filed an emergency petition for rule to show cause for why
petitioner had not paid the mortgage on the marital residence. Petitioner allegedly failed to comply with
orders from the trial court to pay the mortgage on August 2, 2016, and January 31, 2018.
"During the trial court proceedings, the ownership of this property was the subject of ongoing
litigation between the parties in Egypt.
2

18

On October 20, 2017, petitioner filed, a motion to bifurcate the dissolution proceedings in
Will County. Petitioner alleged i t would be difficult, if not impossible, for the trial court to
completely distribute the parties’ marital assets due to now pending litigation over the disputed
property sold by petitioner’s brothers in Egypt. With bifurcation, petitioner sought to have the
trial court first terminate the marriage and then address the contested issues of child support,
maintenance, allocation of parenting rights, and the distribution of marital property, including
assets and debts, located in Illinois. On November 14, 2017, the trial court granted petitioner’s
motion to bifurcate the trial, reserving all issues related to Egyptian assets until after the
dissolution of marri age.

19

On February 2, 2018, respondent filed a cross-peti tion for dissolution of marriage. During
the trial court proceedings, respondent consistently alleged petitioner violated the terms of the
trial court’s temporary restraining order and preliminary injunction, barring the parties from
disposing, transferring, or encumbering marital assets located in the United States and Egypt.
The trial on the mutual petitions for dissolution began on February 13, 2018.

110

Two days later, on February 15, 2018, the trial court, sua sponte, vacated the order of
bifurcation previously entered on November 14, 2017. The trial court reasoned respondent’s
property and maintenance requests were dependent upon whether the disputed property, located
in Egypt, qualified as marital property of significant value. The trial court recessed the trial for
the purpose of providing the parties with additional time for discovery on this issue. The trial
court scheduled the dissolution proceeding to resume on June 28, 2018.

However, on June 25, 2018, petitioner filed an emergency motion to dismiss, citing,
among other things, principles of comity.3 Petitioner alleged that: respondent had initiated
divorce proceedings in Egypt on November 30, 2016, which eventually resulted in an Egyptian
court entering a divorce decree on April 30, 2018.4 Thus, petitioner asserted that the parties were
divorced in 2018, and no further dissolution proceedings could take place in the trial court:,
except for a separate action to adjudicate the parties’ limited assets in Illinois.

1112

Respondent resisted petitioner’s emergency motion to dismiss, claiming “no proceedings
of divorce have been ongoing in Egypt” while matters were pending in the trial court.
Respondent argued “no Egyptian divorce case is pending[.]”

113

On June 28, 2018, rather than resuming the trial, the trial court conducted an evidentiary
hearing on petitioner’s emergency motion to dismiss.The trial court heard testimony from
Mohammed El-Shamoby, an Egyptian law expert. According to El-Shamoby, Egypt’s civil court
is not an Islamic or Sharia court, and the presiding judges are not religious clerics. However,
while Egyptian divorce law is not based upon religious tenets, Egyptian divorce law also does
not conflict with the tenets of Sharia law. El-Shamoby testified that, in Egypt, issues of
maintenance, child support, and marital property are heard separately from a dissolution
proceeding. According to El-Shamoby, principles ofjoint ownership govern property
distribution.

^Petitioner also made arguments under section 2-619(a)(3) of the Code of Civil Procedure (the
Code), 735 ILCS 5/2-619(a)(3) (West 2018), and principles offorum non conveniens.
4The Egyptian court purportedly found that the “confession for divorce,” sent by petitioner to .
respondent on February 13, 2016, was enough to notify respondent of and prove an Islamic divorce.
sThe record on appeal does not include a complete report of proceeding for this evidentiary
hearing. Therefore, we reference the facts contained in the trial court’s final order and decision, dated
September 14, 2018, as well as the parties’ written closing arguments.
4

Respondent called Will Ubaydullah Evans, an expert in Islamic law, as her expert
witness. Evans stated, and El-Shamoby agreed, that a husband may unilaterally divorce his wife
under Islamic law, as petitioner did in this case by sending respondent a “confession for divorce”
on February 13, 2016. Evans and El-Shamoby agreed a civil divorce decree from the Egyptian
court was not necessary to confirm the unilateral, Islamic divorce.
115

Respondent explained to the trial court during her testimony that the Egyptian di vorce
proceeding was necessary, regardless of the proceedings being held in Will County, to prevent
petitioner from exercising Islamic spousal rights over respondent in Egypt in the event Egyptian
authorities refused to recognize a judgment of dissolution of marriage from Illinois. Respondent
testified that her father initiated the Egyptian divorce proceedings, with her knowledge, and
caused an attorney to appear on her behalf. Respondent claimed that she did not realize the
Egyptian proceedings would impact the pending dissolution proceedings in the trial court.
According to the record, petitioner cooperated and voluntarily participated in the action in Egypt.

fI6

Following the June 28, 2018, hearing, the trial court received written closing arguments
from the parties pertaining to petitioner’s emergency motion to dismiss. Petitioner stated in his
closing arguments that, although the parties were residents of Illinois, they have regular dealings,
properties, and significant financial interests in Egypt. Further, respondent’s claim that Egypt
would not recognize an Illinois judgment was unsupported by any evidence of record.

f 17

Petitioner strenuously asserted that since respondent’s actions resulted in a termination of
the marriage in Egypt, the parties were already divorced. Therefore, the trial court lost
jurisdiction to resolve any divorce related matters. Petitioner emphasized that, while the “parties
each cooperated with the proceedings in Egypt to obtain a [divorce],” it was respondent who
initiated the divorce in Egypt. In petitioner’s view, this also undermined respondent’s arguments

5

of fraud and duress. Petitioner argued, that, as was stated by his Egyptian law expert, ElShamoby, respondent is free to resolve all. other issues related to the 2018 divorce and disputed
property, located in Egypt, in an Egyptian court.
118

Respondent argued that the trial court was not required to dismiss the action in Will
County based upon principles of comity. First and foremost, respondent stated that Illinois has
significant and substantial interests in the parties’ dissolution of marriage, as both parties and
their children have long been citizens and residents of Illinois.

119

Alternatively, respondent urged the trial court to consider that Egypt would not recognize
an Illinois divorce decree. According to this argument, the trial court should not afford comity to
the Egyptian order of divorce. Finally, respondent argued petitioner, while knowing respondent
desired civil protection in Egypt, cooperated with the proceeding before the court in Egypt to
later take advantage of favorable Egyptian laws that would divide property unequally, would not
afford maintenance and alimony to respondent as a matter of right, and would decide child
custody matters in accordance with, the Islamic faith. Consequently, respondent urged the trial
court not to apply principles of comity under circumstances that amount to fraud or duress.

120

The trial court heard additional oral arguments from the parties on August 31, 2018.6 The
matter was then taken under advisement. The trial court filed its final order on September 14,
2018. The trial court’s order was based upon principles of comity, and stated:7
“[Respondent] chose to obtain an Egyptian divorce decree for a stated civil
puipose, even though she knew or should have known that Egyptian law does not

6The record on appeal does not include a report of proceeding for this hearing.
7The trial court rejected petitioner’s arguments under section 2-619(a)(3) of the Code and
principles offorum non conveniens, stating “[tjhere is no pending Egy ptian case, and, even if there were,
neither argument is viable.” See 735 ILCS 5/2-619(a)(3) (West 2018).
6

provide for the expansive relief that Illinois divorce law provides, Thar was a poor
decision. It is plain to the Court that [respondent] seeks to forum shop and obtain
another divorce decree in Illinois in order to avail herself of this state’s
maintenance and property division laws.

:f:

5{c

The motion to dismiss is granted, as

there is no divorce decree to grant— Egypt has already done so at [respondent’s]
request.”

112d

In so stating, the trial court rejected respondent’s claims that the Egyptian divorce
proceedings were initiated to affirm the Islamic divorce, arising from petitioner’s “confession for
divorce,” for civil protection, and, that respondent did not realize the impact of the Egyptian
proceedings in the trial court. The trial court bluntly stated respondent was “willfully ignorant”
of the legal ramifications of her actions in Egypt, or “deliberately concealed” the Egyptian
proceedings from both the trial court and her legal counsel in the Will County proceedings.

f 22

The trial court also reasoned that there is “nothing inherently contradictory” between
Illinois public policy and the 2018 Egyptian divorce decree, as to prohibit affording comity to
that decree. According to the trial court’s reasoning, by respondent’s own admission, the
Egyptian divorce was initiated for the purpose of “obtaining] civil protection [for respondent] in
Egypt.” (Emphasis in original.) Thus, in the trial court’s view, estoppel barred respondent’s
comity challenge in this case.

1123

As a result, the trial court dismissed the petitions for dissolution of marriage. The trial
court explained that the trial court lost the statutory authority to dispose of the parties’ property
or award maintenance because, by affording comity to the 2018 Egyptian divorce decree, the
parties were already divorced in Illinois, Egypt, and everywhere else. However, the trial court

observed that respondent could still petition the trial court for the alloca tion of parenting time
and a determination of child support. Respondent filed a notice of appeal on September 19, 2018.
II. ANALYSIS
f 25

Initially, petitioner has forgone his right to file a brief. Thus, under First Capitol
Mortgage Corporation v. Talandis Construction Corporation, we are left, with “three distinct
[and] discretionary options’" on appeal, including: (1) if justice requires, advocating for petitioner
or searching the record to sustain the trial court; (2) deciding the merits if the record is simple
and the issues can be easily decided; or, (3) reversing the trial court for prima facie reversible
error that is supported by the record. See 63 III. 2d 128, 133 (1976); Steiner Electric Co. v.
Maniscalco, 2016 IL App (1st) 132023, f 76. In this case, the issues can be easily decided on a
simple record. Thus, we proceed under Talandis’s second option. See Talandis., 63 Ill. 2d at 133.

126

On appeal, respondent, proceeding pro se, argues the trial court erred by dismissing the
petitions for dissolution of marriage on principles of comity.8 Comity has long been described as
the recognition by one nation of the legislative, executive, or judicial acts of another nation.
Clubb v. Clubb, 402 III. 390, 400 (1949); Accord In re Marriage ofMurugesh and Kasilingam,
2013 IL App (3d) 110228, *jj 40. Due regard is given to international duty and convenience, and
to the rights of the former nation’s citizens who are under the protection of its laws. Clubb, 402
Ill. at 400; In re Marriage ofMurugesh and Kasilingam, 2013 IL App (3d) 110228, f 40.

127

Under comity principles, courts may, but are not required to, defer to laws or interests of
a foreign country and decline to exercise properly asserted jurisdiction. In re Marriage of
Murugesh and Kasilingam, 2013 IL App (3d) 110228, f 40. Where an action is properly filed
8In her brief, respondent argues a dismissal under section 2-619(a)(3) and principles offorum non
conveniens would be improper. However, the trial court expressly rejected petitioner’s arguments on
those grounds. Thus, respondent’s arguments have limited relevance on appeal.
8

and has a legitimate and substantial relationship to Illinois, dismissal is improper. Id. Also,
recognition of a foreign judgment may be withheld if (1) the foreign judgment is contrary to the
public policy of Illinois, (2) the foreign country does not recognize American judgments, or (3)
the foreign judgment was obtained as a result of bad faith, fraud, or by taking advantage of the
foreign country’s laws. Id. at f 41. A court also considers if the foreign court “can do complete
justice to those affected by the decree.” Id. The trial court’s decision to grant comity is reviewed
for an abuse of discretion, and is reversed if the decision is arbitrary, fanciful, or unreasonable. In
re Parentage of A.H. v. Harlow H., 2017 ILApp (1st) 133703, f 17; Performance Network
Solutions, Inc. v. Cyberklix US, Inc.. 2012 IL App (1st) 110137, ff 34, 37.

1128

Initially, we note it was petitioner—not respondent—who formally initiated the
dissolution proceedings in Will County to terminate the Egyptian marriage. This was after
petitioner sent respondent the “confession for divorce,” which was the only step necessary for a
divorce under the Islamic faith. Consequently, we do not share the trial court’s concerns that
respondent, based upon her claimed desire for civil protection from the Islamic spousal rights
afforded to husbands in Egypt, engaged in forum shopping. The record reflects that respondent’s
family resides in Egypt, and that travel by respondent and her children to Egypt might be
necessary or reasonably desired in the future.

129

Further, we understand that the trial court was presented with a unique set of facts.
However, we believe there is binding precedent from this court that should have guided the trial
court’s decision on the comity issue. See In re Marriage of Murugesh and Kasilingam, 2013 IL
App (3d) 110228. Most importantly, Illinois has legitimate and substantial interests in the
parties’ dissolution of marriage. The parties were married in Egypt in 1994, before the birth of
their children, then moved to the United States in 1997. It is undisputed that the couple then

9

chose to become United States Citizens and reside in Illinois during the pendency of this case.
See id. ff 40, 42. Indeed, the parties lived in Egypt for only the first three years of their
marriage, and their children have never resided in Egypt. These facts indicate Illinois’ legitimate
and substantial interests in the parties’ dissolution of marriage. See id.

130

Moreover, respondent filed a motion to expedite her appeal on July 1,2019. According to
respondent, the length of the proceedings in the trial court and now on appeal, as well as the
alleged violations of trial court orders by petitioner, have resulted in respondent’s home, located
in Will County, being sold at auction. Thus, respondent and her children will soon have nowhere
xto live. Respondent has outstanding credit card debt that was previously being paid by
respondent with maintenance and child support payments received from petitioner. These
considerations also demonstrate the legitimate and substantial interests of Illinois in this case,
which are to prevent displacing children and creating uncertainty regarding the basic
requirements of parenthood—providing stable housing and support for children of the marriage.

1131

Affording comity to the 2018 Egyptian divorce decree should have also been denied as
against public policy. Our court has explicitly stated that there is a “strong public policy in favor
of deciding marital controversies locally,” Id. ^1 36, In domestic relations cases, “there is a strong
tie to the county where the marital home is located and where the children of the marriage
reside.” Id. Here, the marital home is located, and the children have resided and continue to
reside in, Illinois. Therefore, public policy favors deciding this marital controversy in Will
County, and the finding to the contrary was an abuse of discretion by the trial court. Id.

132

In conclusion, after our careful review of this fairly simple record, we conclude Illinois’
legitimate and substantial interests in the parties’ dissolution of marriage, as well as Illinois’
public policy, required the trial court to deny comity to the 2018 Egyptian divorce decree and to

10

resolve all dissolution matters in this State. The trial court’s contrary decision, despite the
parties’ residency and Illinois’ public policy, constituted an abuse of discretion.

11 33

On remand, the trial court is directed to resume the dissolution proceedings, on a
bifurcated basis if necessary, recognizing the trial court may need to reserve certain decisions
until the property litigation in Egypt is resolved. Having issued this decision shortly after
respondent’s motion to expedite, we now consider the subject of that motion moot. Due to the
necessity of expediency in this case, the clerk of this court should issue the mandate
immediately.

f 34
1|35
I) 36

III. CONCLUSION
The judgment of the trial court of Will. County is reversed and remanded with directions.
\Jteversed and remanded with directions.

II

IN THE CIRCUIT COURT OF THE TWELFTH JUDICIAL CIRCUIT
WILL COUNTY, ILLINOIS
IN RE: THE MARRIAGE OF:

)
)
)
)
)
>
)

Hany Abutaieb
Petitioner,
vs.

No.

16 D 834

■)

Mona Abutaieb,

)

Respondent.

1

DECISION
THIS CAUSE COMING TO BE HEARD for ruling on Hany’s motion to dismiss this
proceeding. Hany is represented by Demetrios Daimares. Mona is represented by Nadia Khan.
The Court, having heard evidence, reviewed the pleadings, and having heard argument, finds as
follows:
1. Hany filed the instant petition on May 17, 2016.
February 2, 2017.

Mona filed a counter-petition on

2. Hany and Mona were married in Egypt on July 7, 1994. They subsequently emigrated to
the United States and became American citizens. Their four children were bom in the
United States. The eldest is autistic and lives in a group home near Hany’s new residence
in Arizona.
3. Hany and Mona own multiple properties in Egypt and the United States. There is a
dispute in this case as to the ownership of one of the Egyptian properties, which is
potentially a valuable marital asset. Hany has instituted a lawsuit in Egypt against Mona
regarding the ownership of that property.
4. Both parties agree that the value of their American assets is relatively limited, and that
the disputed Egyptian land is the main subject of a property fight in this case.
5. During the course of this proceeding, an injunctive order was entered precluding the
parties from disposing of any property at issue.
6. Additionally, upon motion ol the parties, the parties’ American passports were held by
counsel to preclude them from personally travelling to Egypt, to dispose of any property.
7. However, by agreement of the parties, the passports were released and they did travel to
Egypt in July 2017 with their children.
1
APPENDIX E

8. Mona correctly notes that the parties have historically taken lengthy trips to Egypt during

the course of their marriage.
9. A pretrial was held on September 8, 2017. After the pretrial, on October 20, 2017, Many
filed a motion to bifurcate the proceeding asking the Court to divorce the parties, address
the issues as to American property and support, and to reserve the issues of the Egyptian
property. Mona objected. This Court granted the motion on November 14, 2017.
10. Trial on this matter began on February 13, 2018. On February 15, 2018, this Court, on its
own motion, recessed the trial and vacated its order of bifurcation. This Court, having
heard the evidence and the arguments of Mona’s counsel, in particular, reasoned that
Mona’s request for property and maintenance depends heavily on whether the land in
Egypt is mantal property that can be allocated as such and whether it has significant
value. Because the parties had not fully prepared to present evidence as to the foreign
property, which would require the use of certain expert witnesses, given the relevance of
Egyptian property law and the language and translation issues inherent in same, the Court
continued the trial, which was eventually scheduled for June 28, 2018, and allowed for
further trial preparation and discovery.
11. On June 25, 2018, Hany filed a motion to dismiss this case, arguing that Mona, as a
plaintiff in a foreign, proceeding, irad obtained a divorce decree in Egypt from a civil
court on April 30, 2018.
12. On June 28, 2018, this Court held an evidentiary hearing on. the motion. The parties filed,
written arguments thereafter, On August 31, 2018, the Court heard additional ora!
argument regarding same.
13. At the hearing, Mona testified that, with the assistance of her father and family, she
retained or a lawyer was retained for her to seek a divorce decree in civil court in Egypt
on. her behalf. She explained that Hany had religiously divorced her under Islamic law by
sending her a written message indicating same in February 2016. Mona stated that, under
Islamic religious tenets, she was religiously divorced from Hany via his sending her that
message. Mona maintained that it was necessary for her to obtain a civil divorce decree
in Egypt to prevent harassment from Hany m the event that, when she was present in
Egypt on a visit, Hany would claim that she was still his wife and take certain action,
allowed under Egyptian law to husbands, to obstruct her movement or harm her. Mona
stated that the existence of a civil divorce decree would allow her to prove to Egyptian
authorities that Hany had no marital rights to assert with regard to her.
Hany filed this divorce petition in May 2016. Mona instituted the Egyptian civil
proceeding in November 2016. Mona filed a counter-petition in this case in February
2017.
Mona did not disavow her Egyptian divorce or maintain that it was obtained over her
objection. Ihe Court finds that she concurred with the proceeding and, indeed, actively

2

sought to pursue it for the purpose that she articulated. The Court does not dispute
Mona’s concerns as to harassment in. Egypt.
Mona stated that she thought that the Egyptian civil divorce proceeding was solely
religious-based—that is, that its purpose was only to affirm the existence of a religious
divorce. She stated that she had no idea that an Egyptian civil decree might be deemed to
have an impact on her American divorce proceeding. The Court rejects these assertions
for two reasons.
First, at best, Mona was willfully ignorant as to the potential legal ramifications of the
Egyptian proceeding in this case. At worst, she deliberately concealed the Egyptian case
from this Court. Mona is an. articulate, intelligent woman. The Court does not find it to
be credible that it did not occur to Mona that there might be an issue in this case as a
result of the then-concurrent Egyptian case that she was pursuing. And Mona has always
had counsel m this matter. Yet it would seem that she made no effort to consult with
counsel as to this issue. Further, Mona did not inform this Court of the Egyptian matter.
This Court first learned of it when Hatty filed, his motion to dismiss. The Court notes that
Mona’s counsel apparently did not know of the Egyptian case until Many’s motion was
filed.
Second, Mona, by her own admission, sought the Egyptian decree for the purpose of
using it to obtain civil protection in Egypt. Mona acknowledged that, from a religious
standpoint, she was divorced even in the absence of a civil decree. She. knew that a civil
decree provided, her with additional legal benefits in Egypt, and. she sought it for that very
reason.
14. Many presented Mohammed El-Shamoby, an expert in Egyptian law. He reviewed the
court documents. He explained that Mona, who was represented by counsel, had
obtained a divorce decree in a civil court. He said that the civil court is not an Islamic
religious, or sharia, court. He explained that Egyptian civil, divorce law is not religious
law, but that it also does not conflict with sharia lav/. He explained that the judges who
preside in the civil court are not religious clerics. Both Islamic and non-Islamic
individuals can seek and obtain divorces in the civil court. In Egyptian divorce cases,
issues as to maintenance and child support are not heard in conjunction with the
dissolution. Instead, such issues are heard as separately instituted proceedings. Property
issues are likewise heard separately—any property owned by divorced parties is
considered under principles of joint ownership.
15. The evidence about the Egyptian decree showed that that Mona, through counsel, had
instituted the Egyptian divorce proceedings in November 2016. Various court personnel
were assigned to the review of the matter. Hany, through counsel, also participated in the
proceeding. A petitioner is required to assert grounds for divorce. The ground that Mona
presented to the civil court was that Hany had divorced her under religious law by
declaring same in writing in February 2016. The April 2018 civil decree found that
Mona had been divorced since February 2016. No evidence was presented that Mona

3

sought a court resolution of her property or support issues. Indeed, Mona noted in her
written argument that she opted not to do so.
16. Mona presented Will Ubaydullah Evans, an expert in Islamic law. Evans was not an
expert in Egyptian civil law, and this Court did not. allow' him to opine on same. Both
Evans and El-Shamoby agreed that a husband may unilaterally choose to religiously
divorce his wife under religious law, as Many did in this case. Both Evans and ElShamoby stated that a civil divorce decree is unnecessary to confirm a religious divorce
to maintain its validity from a faith perspective.
17. This Court agrees with Mona that Hany is not entitled to relief under 735 ILCS 5/2619(a)(3) or the doctrine of forum non conveniens. There is no pending Egyptian case,
and, even if there were, neither argument is viable.
18. Hany’s claim for relief thus rests on comity. And if this Court affords comity to the
Egyptian decree, the petition and counter-petition must be dismissed as moot.. The
Court’s statutory authority to dispose of property and award maintenance stem from'the
divorce proceeding. As for parenting time, responsibility, and child support, should this
petition be dismissed, Mona has the right, to petition the Court in a separate proceeding
regarding those matters.
19. The Court has no obligation to afford comity to a foreign divorce decree. In re Marriage
of Murugesh & Kasilingham, 2013 IL App (3d) 110228, <j]41. The Court can decline
comity if the foreign judgment is contrary to public policy in the state, or if the country
irom which it was obtained does not recognize American decrees, or if the judgment was
obtained by bad faith, fraud, duress, or taking advantage of foreign law. Murugesh, 2013
IL App (3d) 110228, j|4I.
This decree is a declaration of divorce—nothing more. There is nothing inherently
contradictory to Illinois public policy with regard to it. Mona has made no showing that
she was not afforded due process in obtaining the Egyptian decree.
It is not clear to this Court that no American divorce decree would be recognized in
Egypt. But, even if true, that fact does not preclude comity in this case.
Most important to this Court is the fact that Mona was the plaintiff in the Egyptian
proceeding. She availed herself of that court system in order to obtain, an order that she
believed would allow her to travel unencumbered to that country. Estoppel precludes her
from challenging Hany’s comity request. See Perrin v. Perrin, 408 F.2d 107, 109, 111
(3d Cir. 1969) (“It follows that plaintiff may not in this proceeding be heard to deny the
validity of the Mexican divorce decree”); see also Diehl v. United States, 438 F.2d"?05,
708-09 (5 Cir. 1971) (“it was settled in Texas that a party who seeks and obtains a
Mexican divorce is thereby estopped to deny its validity under the circumstances
described in that opinion”); see also Weinberg v. Todd Shipyards, 97 N.J. Super 289, 293
(App.Div. 1967) (“Further, were Shirley to attempt to assert a claim that she is Louis’
widow-’, she would be estopped from attacking the validity of the Mexican divorce which
4

she obtained and on the basis of which she remarried.”); see also Application of Holland,
540 N.Y.S.2d 803 (1989) (“claimant instituted, by her own counsel, the Haitian divorce
proceeding and personally appeared therein...”).
The Court rejects Mona’s argument that the Egyptian decree was obtained by fraud or
duress due to scheming or subtle pressure by Many to force Mona to file the petition.
First, Mona cites no case in which the petitioner in the foreign proceeding was found to
have been induced by fraud or duress. Second, the Court finds little to no evidence to
support that claim. Indeed, the Court notes that Hatty filed the American petition for
divorce well before Mona sought the Egyptian petition. Third, Mona is an American
citizen who had no obligation to travel to Egypt. She chose to do so, and she obtained
her Egyptian divorce to facilitate same. The Court notes that Mona’s complaint of
Hanys’ conduct in Egypt-in. 2015 pre-dated all of these proceedings. And her complaint
of his conduct in 2017 insofar as she says it supports her claim of duress is tempered by
the fact that she chose to enter an agreed order in this case releasing the parties’
passports and allowing both parties to travel to Egypt at the same time. She made that
choice after voicing multiple complaints to this Court regarding the possibility that Many
would harass tier in Egypt if they were present in the country together. The Court must
also note that, contrary to Mona’s argument, the order of protection in 16 OP 911 had
been dismissed on June 1, 2016, and the parties entered an agreed, less restrictive no
contact order in this divorce proceeding that day.
The Court notes that no argument is presented regarding whether Egypt considers Mona
and Hany to be domiciliaries of the country. Perhaps that is because they were married
there and continue to own property there.
The Court affords comity to the Egyptian decree. Mona chose to obtain an Egyptian
divorce decree for a stated civil purpose, even though she knew or should have known
that Egyptian law does not provide for the expansive relief that Illinois divorce law
provides. That was a poor decision. It is plain to the Court that Mona seeks to forum,
shop and obtain another divorce decree in Illinois in order to avail herself of this state’s
maintenance and property division laws.
20• The motion to dismiss is granted, as there is no divorce decree to grant—Egypt has
already done, sn at TVfnna’q rpqnpqt

So ordered

V /.
T-~.
/ci

(

September 14, 2018

Dofnehica A. Osterberger

5

Points Relied Upon
For Review of Judgment of the Appellate Court

The appellate erred on their decision based on false facts and granted inequitable
decision on this case. Ex-wife (appellee) has significant assets in Egypt and multiple bank
accounts in Egypt in (AAIB, Alexandria, Misr banks) and in US with a considerable amount
of balance which she never revealed on. Ex-wife (appellee) inherited from her late father
in June 2017 and she did not disclose her inheritance in retrial in Aug 2019. Ex-wife (the
appellee) signed a contract on townhome at Manhattan IL and closed in Sep 2019 without
disclosure in last re-trial in Aug 2019. Appellant (Hany Abutaieb) inherited from his father
in 1989 before his marriage in 1994. The appellant (Hany A.) purchased all assets in Egypt
from his inheritance. Unfortunately, appellant (Hany A.) shared some of these assets with
his ex-wife (appellee) under her pressure over the 22 years of marriage and some ex-wife
the (appellee) added her name without consent or even notifying the Appellant (Hany
Abutaieb) using the general power of attorney which the appellant (Hany Abutaieb)
granted her in Egypt. Ex-wife (appellee) has many joint assets with appellant (Hany
Abutaieb) which are currently under litigation for distribution in Egyptian Civil Court since
these cannot resolved in the Egyptian family court as Egyptian family laws follow Sharia's
iaws which are different than the US family laws. Ex-wife (the appellee) is claiming that
the appellant (Hany Abutaieb) has assets in Egypt that do not exist to defame his assets;
on the other hand ex-wife (the appellee) is renting some of the joint assets in Egypt without
consent of the appellant (Hany Abutaieb) and even before the Egyptian court divide these
assets and collects the rent fees without sharing it with the appellant. Ex-wife (appellee)
filed for a divorce in US in Feb 2018 and filed for another divorce in Egypt in April 2018 to
get advantage of both court’s jurisdiction in Egypt and US. Ex-wife (appellee) has been
receiving maintenance in US after filing the case #1802189 and moved forward on her
appeal 3-18-0559 claiming that she is not receiving income. The divorce was granted in
both US and Egypt. All assets in Egypt are joint (Hany and Mona) and out of US
jurisdiction and have complex laws in Egypt which are dissimilar to US laws. US dismissed
the divorce case#16D834 initially in Sep 2018 based on ex-wife Egyptian divorce then
reversed the ruling based on her appeal case 3-18-0559. The appellant (Hany Abutaieb)

EXHIBIT F

did not respond to the appellee’s (Mona) case since his previous attorney stopped
representing him due to overdue legal fees and informed him that ex-wife (the appellee)'s
appeal has no basis and likely will be denied. On contrary ex-wife’s appeal was allowed,
and retrial was conducted in August 2019. The appellant’s ignorance and lack of legal
representation ended up of inequitable decision in the circuit court 16D834 Sep 2019 and
recently in appellate court 3-20-0572 in June 2020. The appellant (Hany Abutaieb) was
pro-se in both courts. The court erred on the appellant (Hany Abutaleb)'s peak income on
2017 when he moved from Joliet IL to Peoria IL. The appellant (Hany A.)’s family
investment home was sold in 2017 all money he got from selling it plus his tax refund of
2017 were deposited per the court order in the appellant’s (Hany) attorney's escrow
account and was distributed later between the appellant (Hany)’s attorney and opposing
council legal fees (the appellee’s attorney). Orabi land which \ inherited from my father in
Egypt was miscalculated and overestimated by me due to my ignorance of Egyptian
Pound inflation currency exchange during the past years. There was significant inflation
of the Egyptian pound to the dollar value in the last few years which I discovered later. All
points above contributed to inequitable and unconscious decision from appellate court.

3.

Statement of Facts
1. The appellant {Many A) complied to the court order since the beginning of divorce case
16D834 on May 2016 by paying 2000/mo, all ex-wife debts, car payment, mortgage,
utilities, auto insurance plus his monthly apartment lease, Hany’s (appellant) car
payment and travel from Peoria to Chicago and later from Tucson AZ to Chicago to
attend court cases and see kids. Hany used to and still paying allowance, buying stuff
for his kids such as laptops for schools and keen to take his kids for outing since May
2016. His credit cards maxed out and he drained his bank saving to keep up the family
expenses on the top of his living expenses and legal fees. The Appellant's (Hany
Abutaleb) net income was around $6200 - until Feb 2019 when started paying
maintenance and child support per court order 18D2189 - when his expenses were
over his income. Hany borrowed 10K from 401K to pay all the dues per the court
order. Now his net income is only $2500/mo after all garnishments. Hany (the
appellant) asked his attorney to expedite the divorce decision to prevent significant
increasing in legal fees for both parties in this case and bifurcate US from Egyptian
asset with respect to Egyptian law and since these assets is already under Egyptian
litigation. The appellant’s (Hany A) council (Mr Palmares) was successful to get the
court decision to bifurcate Feb 2018 then the court changed the decision to proceed
on the case based on Orabi land sale proceed which the appellant (Hany Abutaleb)
will provide details about the history of this land later. Appellant (Hany A) used to pay
mortgage for a year and a half after the start of divorce case then he could not afford
it so he applied for loan modification which eventually increased the mortgage payment
from $1200/mo to $2200/mo. The divorce case (16D834) lasted from May ’16 to Sep
18 and the case was dismissed when ex-wife filed for divorce in Egypt. Mona (the

EXHIBIT G
/

appellee} filed a motion in foreign judgement court for maintenance and Many
(appellant) complied and agreed on this motion.

2

appellee (Mona)’s bank (Misr Bank) account from the sale of family home
above.
Exhibit 0: Mona’s bank account in Msr Bank

■lOrship & Translation

■' Scientific Bureau •

FOUADMEMAri
(a)Sherlft$t. Heliopolis.
. <;! 22567SQ8-24SDS219
37. Kmr&Nfl St, Cairo
Tel: 23022124
Accurate

MftliSO

TRANSLATION
EGYPT

Date: 22/08/2006
12:28:5.8
Serial no. 0065 01509085
Dokki
f^g&DlPOsijT voiicmsit

Account number
Deposited for the account of
Amount in digits
Amount in letters

: 19100100053622
i | .Mrs. Mona MoSed Ahmed |
: Only eight hundred and sevens thousand
Egyptian Pounds

Depositor's name
Address

* **

With keeping the ordinary reservations and acceptance ofthe account's holder.
The amount fsceivcdia cosh.
Teller's Signature
(Signed)
"Sea!: Basque Misr

APPENDIX

t

Mona's maintenance and child support payments
STATE DISBURSEMENT UNIT OF ILLINOIS
CHILD SUPPORT SUMMARY PAYME NT HISTORY
AS OF 05,21-2920 22:35:05
Ceimty* Will

TIPS: 1789700

Date Range:
PAYEE:
PAYOR:
Collection
Date

omsam x«Mh«aFi*nt

D-Dcfeel; ISD0321S9

05/222019-06212028
•ABUTALEB. MONA
ABUTALEB. KANT 5

Activity

abutaleb,hany

Posting
Daw
■06/B52H9
'35/05/2028
05/29/2028
95292020
05/513020
85/01/2320
04242020
O424QO20
®4ffi32020
04/032020
.93272020
05272828
85/122020
•03022020
<82282020
•82282020
02/032020
CFOS 32 &20

Payment
■Amocint
S25I2R

Did), in:
85292020 Received From:
Dhb. To:
35i01/2020 Received From:
Ohb, T«:
04./242020 Reca-vedFrom:
Did), id:
<044332020 Received From:
Did), To:
05.272025 Received From:
Did), To:
.03222020 Received From:
Did). Id:
32282020 Received From:
Did), Id:
02/852020 Received From:
Did). To:
01242028 Received From.:
Di:b. To:
81/822020 Received From:
Di:b, To:

ABUTALEB, MONA
A5uiAI.JsrS. HANY
ABuT.AS.s3, MONA
ABUTALEB. EANY
ABuTAUEB. MONA
ABUTALEB. HANY
ABUTAiEB.MONA
ABUTALEB, HAN'T
ABUTALEB, MONA
ABUTALEB. MANY
ABUTALEB, MONA
ABUTALEB, HANY
ABUTALEB, MONA
ABUTALEB. HANY
ABUTALEB, MONA
ABUTALEB. HANY
ABUTALEB, MONA
ABUTALEB. .HANY
ABUTALEB, MONA
ABUTALEB. HANY
ABUTALEB, MONA

Yearly Sab total:
52.20201? Received From:
Did). i -o:
12/05201? Received From:
Did), To:
1129201S Received From:
Did), Ta:

ABUTALEB, EANY
ABUTALEB, MONA
ABUTALEB. HANY
ABUTALEB, MONA
ABUTALEB, HANY
ABUTALEB, MDNA

122072019
12202819
12/052019
12/552019
11,29201?
11:292019

miaow Received From: ABUTALEB. HANY
Did), To:
ABUTALEB, MONA

10/312019
10/312019

S2.5i2.57

10252019 Received From:
Diib, To:
10/332019 Revered. From:
Dicb, To:
0927/2019 Received From:
Db’o. To:
08292DI9 Received From;
Dhb. To;

18252019
10252819
10/032019
10/532919
89272019
09272019
08292019
0S/2S20I9
08232019

$930.00

ABUTALEB. HANY
ABUTALEB. MONA
ABUTALEB, HANY
ABUTALEB, MONA
ABUTALEB, HANY
ABUTALEB, MONA
ABUTALEB. HANY
ABUTALEB, MONA

08232019 Received From: ABUTALEB, HANY

z

01./242O28
01242020
01:022028
3I.T22S28

Bid).
Amount

WoACiroup
442456

SL512.P
£930.00

955059
$930.80

S2.512.17

.44157S
$2,512.17

S93O.O0

995050
5953.00
455488

$2,552.37
52.512.17
S1.61S.43

990C31
51,618.43

S25I2J7

.512018
52.512.17

Ss.61S.45

S90045
S1.61S.43

52.5 i 2.17

416030
S2.512.17

£930.-80

990066
5930,00

$2,512.17

425726
52512.17

£21,039.88 621,09968
5950.00
$953.08
S2.512.17
52,512.17
$930.00
5930.00

995053
4476S1
9SOS3S

424068
S2512.P
938844
$938.00

$2,312.17

445S5S
£2612.17

$950.08

990062.
6930.00

$2,552.87

529005
S2.532.17

£930.00

990048

* r■

(Mona)'s bank account jn Alexandria bank in.Egypt

I

!§ul‘Sffitrmmrnn

/l&sIBi

i,ge8iratejt^ri«wmMCWB6¥rr
•siwutdifr AiatMAwaRiA'
i
!

i

aj05fi0i2f00MO3

Pjlf~
KaMlv

1

’ ITIlte^

nftvMi

ASSilSH

Aes»iipi;ripiiiter ;,
"'.... "..................
i
Clisfii.braneh
~ r
&ff6ss|:
s :Sg)55tilkp#oiJid
|
AiJldiiit
•*$240:
_
_
;
AsssiMLittiw'siris-.; ,0nly':eigii|t iMife'd Mii. twefty* ^k-.'Egj^M. 'IPffiAtfs7 '&
sg/iBp;
................................................. ....
Cfisarsfenalsfe :t :S%iet:
;

!

,!

-s

Appellee (Mona) bank account in Egypt in AAIB
'>

UBjOOOLE* $22,000 If)
2008

I
]

]

. Mona’s (appellee) current home in Manhattan IL

■7

glp

‘r

A!
^

■

2 Zillow

^ Edit

O Save

^

r

j a 3bd | 3fia | 1,715 Square feet' .
St K-.t£

hi

Jr

ij'.'iiS",sr::_

15164 W Quincy Cir., Manhattan, IL 60442

i
I ' -]

O Sold: $179,980 f Sold on 08/27/19 j Zestimate®: $185,259

SlSk rtt-

:

Est. irefi payment: $1,231/mo '||| Get current rates
s

i --yv

■j--

g ^Pnmsifiiefisly
|Abutaleb|mor,a

'RfesSitsifi

* .'■“"Rei
M ' 12:iocu«nenf-Tv’-■ pe.-at-:
i
K09TGAGE

R201SOS1D05
RMpSltW,

■■■:•

ABUT«J=8 MOKA «...

93®K911:4<!'.18.AM

iCAbATtAOTCGfiOU.;.

MORTGAGE BCCTR.,,

PT/a FORM.,
.

R20190S10S4 .

—

Sf3>2d|3 ^ 1:4fl ;e0 AM

:r -:^ ■

-, ^

!,‘i: >j

SPECIAL WARRANT?. .,

5

.«5ITAlJB6«ONAM.„

tMlipteSlftd’MswilOts i

Asala apartment in Egypt - Joint ownership between Hany (appellant) and
Mona (appellee)
awwwio Btiresm FOUAD KEMAH
(»JSbertf,£t ttotfopoBa

MslSJB

mArcSLATrOTV

3?. Kasr EIWl) St, G«vt»
Tab 2Sfi3213bf
Accarat&T^gH

seismIC o:f ecfpt
PMEIrKOBA COMPACT, S.A.F,,

i

m."

PCTtON AHI) PEVEIjQPMf.fff

gWMMAftv orw jminaby contract ay salf. of a aoimisrie
ISfflT..ffLAnM ASALA TOrogSnC.mi.ACE WMEItSA MATBfMTH
cnry

“

On February 3?, 1996; this conteCr (ms ten tsmduSco by and (et»
*

*

®*“
Kora *w Comstmiioii and ©waltipraesrt. SA.E,, having its premises
in Estasa Matron*, Znfecr Gala! Street, beside Police Otto; having «. brent* m 381
Saa Cfinat Road, Si- Shelby, Atatatttej, represented in :thfa oeratoei by
Eng. Abonotasii Abdethallm Abmtetem in is capacity ns the Chairman of tits
Board ofiDsfeitois,
{Firs! Party-Sdlcr}
Wfilty. Sayed Alan eel Afetthdriblbsemercif m tawdnp, *3133 issued el Dbkki,

.^igilSaSMiLa^Ste,’^ ?m rinffll TH? Y?«3$33f and

* |B1rfc Mona Mohamcd Ahmed pfabarosjt AbiMehl bearer of !Rj card bo,
TS793Z issues »l tt- iwt wm, entire doveraotate, os August i 3, 1992, printed bo.
T46008S*
teirited at tl Mecca Street efFMohyettb Abcmtac Sweet. heWnd Stofec Giith,
©ofcki, Tel 309708S.
'
* *
(Second Party* PnrahesMs)
yf

- The First Petty »id to the Second Patty, a fat in AsbTb Tourisfie VsSloge, Mcrsa
MstreaSa City, The sale metedes {he ted and the talifliags.
- ftis sale has bean emtaluded for teal price of |.ji, 92000 (erty ntey- two
tttmtsaad Egyptian poas&tfe ofwfckh the atom «fU 23000 tes teen paid by
She Second ffeity upon signing lids contact; while the rematsing motmt of
L.E "5901)3 will he paid -Or, 6 seral<®mss| instaiimams as from March i, 3'995 sill
September I, J 998; {he value ofeach insjallmisoi Is ML 3 J 500.
First Paiiy-Seiler
Ons El* Blare for Conswucttoa find
.Developmenl
{Signed)

Second Party- Pitrefeasers
Hany Abutafeh &.Mona Mnhnmsd
Ahmed Abuialeb
{Signed)

f, Smim Urmib, bothy affirm fan 1 oat 'cmgwtMr fcres&fe fa afiaeketl daenmm fan,
fame, im Eogthb mt&m fa nmhafa it otmm.

AuiftctrsWp ® Translation

-ijilil

6

Scientific Surefitt
. FOUAONEtHAK
14 (atSteri;F,SI, Hafepoile
Tei 22S8r<S08*2450S2f8
ST..KW EINI! St, Calf#
Tel: 23S2S124
Aesusals

Elmarwa apartment in Egypt -Joint ownership between Hany (appellant) and
Mona (appellee)
■wtyp & Translation

HKSSB

SctorsflJie SlMfCttu
P0U&0 NSttAH
-»JSto;ri!,5t. f+sllopollc

!

TRAKSl xATIQN

iaf SlaTWNSeiSir

It, Ksir £IH« SI,. CSfe

COF H6WT
ORT

curate

SriMMAR¥.Qy OWNERSlUtP CONTRACT
Ob Wednesday, SeytMTitel2093; fils srateact lias ten concMed by ami between;
®

AMU Ocmpflaj,' for Miflqft Trading and Contacting fCBninastccl),
SJ'.E., DOTEjiiercm! register no, 0822?; taring Its premises Kl New Borg £1Amb
fits Third Industrial Zone, Blotk 22, Mot as, 5. Atexamlfta;
i^rassrrted by £ng, Metamed Kama! At&BS, Chairman of te Boad of Directors
and Managing Directer.
(First Parly* Seller)

* I ?B8> J&d? Snysd A8smrf Airataic'b,|bsarEr of© eaid »3. S3 533 issued at
« I, Mrs. Mma MoiiamtsI Ahmed Mohamcti AfeautRlJ 'bearer of passtwrt no,
---------------------------------------------------

—**"3

‘

domiciled in El- Rehab Ctor. Group AZ, Buildings, fta no. 1.
fScwml jParty- iPiirchasers)
- Htt Fits!' Party sold to Site Second Fruity,; fie Hat no, 3 on fie first floor, fesslidiag
0D, (7), in Elmaron Resort tecnied at Alexandria- Matrons Coastal RcasC
SI* Hftmtijn District, Merss MElmtsli Oovernarfite. Hie Sat consists of 2 rooms,
2 tetfewoms, reception and Mater, of total surfftst of 143 ’is4
- Hits sale tas beat eoueluded for total and fmol price of LE, ISSDSO (only one
liucdicd and ninety- five fhousmi %ypriart poswls}- of Whififi fie amount of
L.E, 4S0S9 fas tew paid by fie Second Party bjsob signing fikeonirset; white
fio remalinmg amount of L.E. I5D930 will fee paM on seven Installmentsas from
November 5, 2093 till May 1,2001
Pi!*? Party- Seller
Hadld CompBriy for lndcsby* Trading
and Cosirasting (Cfitirasfiel)
{Signed)

Second Satty- fureteer
.Massy Sayed Ahmed Abutaieb & Mona
AtjiitaSeb

{Signed)

Scab Madid .Cempny for todusroVTradiisg and Gonfraeling (Gaitasted)

/, Karim NemtiSit fterehy efftn-,\ihm 1 sm emfimm its f«wste
Arab?cfnu>Jtyg!tsh mishm tht tramiaiim natewsit.

aiiaehci1 tfosumnifrsm

Authorship & Transition
Sidtemiffe Bureau
FOUAON€MAH'
*■

,11 ffl:

7

taMrato Trs®

Rehab apartment in Egypt-joint ownership between Hany (appellant) and
Mona (appellee)

EK11-5; Rehab villa In Egypt Joined owners
<<5)ShefSf»$'t HefWBOlli

iffli-assiffaf-nieSsf
Accurate

TRANSLATION

coy, asm

ARAB-PRO JBCTS ANP CTBAH.P mm?wmCTiCOWMSy.

t&r

CL- REHAB PROJECT
1NNEW CAIRO <3TY
[MffiMtARV OF A .CONTRACT OF SAiLE OP A VILLA IN CASH
On Monday,, Marsh 5fl 2010?* this ccmtmcS has ten cwkIbJcJ by nwi between:
® Arab Pngetts and Vital DsHttejaBCW Company (S.A.E.), having its premises
at 36 Mosadak Street, Dskki District, Otaft Gavenumte; represent©® in feta contract
by Mr. Meshssn Talas! Iriondnfa to his capacity m fee Chairman of the Btsei of
Directors,

Prespa?^--Sdler)
•IMr. Hany Saysg Ahmed Abuteies art® Mrs. Mona Mohamet) Atecti Afeafilsbjj

T^pIBSrreiaglM'll "fB1 AI^'KggiMscffi Mlf S&atblf

fct-lite;

■ terer of 10 c«i so. 63133 W st 3>o»:l Civil Registry Office, -G&a
■ Odvcrowase, on October 22, 1985.

(Sceoifl Party- ftardsasefs)
- The Company (First Party) sold no fee Second Ratty (Fure-tassr), the villa no, 41,
Model (X). Group <31), of total mirths® of 3?fi ns3; the
and its private gsnks
ere erected on a surface of ton® of 560 an1.
* This contact ef sate Ms been concluded for the total price of L.E. 832M45 (only
one million thres hundred and twenty. nine feavssnd four hundred ana forty- Jive
Egyptian pounds) to be paid as follows;
!» The onmart of HJE, 1S9S05 (one trandred and ninety- nine th«ssaitd ei^rt
hundred end .five .Egyptian poarsds) has ten paid by its Second Party es a
reservation payment on June 23.2006.
2* The amount of L.E. 1129640 (only ©ae mlllian or® hundred and twenty- nte
thousirtd sis hundred End forty Egyptian pounds) has tea paid by the
purchaser upon signing this contract.
First Party. Seller
(SIped)

Sseond Party- itacteer
For them M shamed Ahmed. Atasiefe
(Sipjed)

Seal; Arab Projects and Urban Dtelopment Company (5AE.)

/, Xaffm Nmak, ftrrrfy epras (fast 1 ass cmptlmi to mnttstt (hr dtothtddeewuast/hm
Arabic fnm Biglhh o«rf that the tmralafSem St epmmm
Amiterssifp & Translation
Seterrtlfle Bunttu
FOUAOiMBMAH

'«««"’
cjUViliL

8

"■•eSSM"™

MMmtkoJtmmXauuUUm.

Rehab villa in Egypt-joint ownership between Hany (appellant) and Mona
(appellee)
r

&TnnitaHeri

SctemHto Swteti
POUADNCMAM

■

EXl1»S: RetJato villa In Egypt Joined owners Wp’:JS

«)SSKsrt!1flt.

na^niM

ffl!SsiT.8sa.'iss«it

Pt, f5,@srtiNlfii*§«ro

rICOPEOTPT
,ARAB-RROIECTS AMD TOlftW PETOiQlPMBlfT COMPANV
jgffypiiftn Joint- Sfarik Company
EL* REHAB TOO.TCCT
in new Cairo crry
StMBMBy_j^_OOSimAC?OPSAl,’E OP A VBULA.IW CASK
Cta Monday, Match 5,1®?, Bib contract tes tea concluded by ?rad befsvsea:
® Arab Prejeets mnd Srhsa DmSojimcnf Company (&A.E.), tavfejg its premises
at 36 Mosedak Sweet, IMfcl District, Gist Gowemsrase; represented in this contra©!
by Mr. Hteharn Tate Moostsfa :ta this ©parity as She Cihiimum of fee Bond of
Directors.
Party-&ler)
®|Mr. Hany s*yed Ahmed AfeWtfcJiaftdMre^MeMMahstttB Athmrt AteMefei
sgypslfuss, bwnwusw «i iiv At- .betiU"iJyisS6ii0"iMI^"oifcei oil *j>»sr ia* feutaf
tetter of ID ©anl jib. S3133 issued at BMdki Civil Registry Office, Oise
GffisBfHSSIe, on October 22, I9SS.
peeesi
PcwtecnO
- Tlie Csmpsity fflm Party) sold to fee Second Ram- (Punfesser), fee villa no, if,
Mode! (X), Group pi), of iota! sarfese of 3?d sit the villa and its ptee gwfa
ore ejected on ® EBfface of land ofS6§ im*.
V >••

* This contract of sate has been cstwiaied Cor the total pise of Li, 13:29445 (oaJy
■one million fetee Jhwndfed end iivsHiy- nine fesmsand (bar handled «nd forty* Eve
Egyptian pounds) to be paid as follows:
1- The finseam of UE, 1 S5»30S (one hundred and ntey- rti* toosiaid eight
hundred and fire Egyptian pounds) has tee# paid by fee Second P«ty as a
tesemSw payment on June 23,2Mb.
2- The amount of LE. 3129640 (only one rallilos cue toadied and twenty* nine
thousand six hundred end forty Egyptian pounds) has ten paid by fee
Peretmsei upon signing this contract.
First Patty-Seller
(Signed)

Second Party- ftnstecr
For them Mbhamed Ahmral AbotaJtb
(Signed)

Seal: Arab Projects and Hites Dewlopnwnt Company (S.A.E.)

/. Kmtm Ifeweft hmfy ttffkm ffts ! ®b oswjwrfw to mmlmt the attached doesmmjrm
Ambit inm EngSM md ito rte mmfmkm l» accmae.
Authorship-le Translation
SetentlfSe Sur*au.
FOUA0 HIMAH

H(o)8hertf,ei.

rm

_ «. fl.il IBs

3

It
ft

t&itM*.ticrasSafc Ttfaifft Trfert«iM‘2ibf4

CMERPILLAir
Caterpillar Global Mining LLC
875 W. Cushing St.
Tucson, AZ 85745

June 18, 2020

To Whom it May Concern:

This is to verify that Hany Abutaleb #0366436 has been a fuil-time Caterpillar
employee since hired on 3/21/2005, and is a 6 Sigma Black Belt in our Tucson,
Arizona facility, and currently earning an annual salary of $103,401.96.
His annual salary income in 2016 was $94,932, 2017 was $97,788, 2018 was
$100,488, and 2019 was $103,401. If you require further information, please let me
know.

Sincerely,

Krista Fisher
HR Representative
Phone: (520)917-3909
Email: fisher_krista_n@cat.com
Surface Mining & Technology Division
Caterpillar Global Mining LLC

APPENDIXjr

TOOTED STATES DOLLAR - EGYPTIAN
POUND (USD - EGP) eaten*?

l

!

Add to ir-.Tcii’k;

16*1796 0.0004(0.00%)
«h2Sh^«<B3r
Carao&ty Saapsbot
Ju'iisjliiy

Iht

Cfca

\

Via

,iy

■*>

Mm

'V

lEt-lcstors

Sicaatifc-'CIiart

V

i
i

m-

4

BggggiPBM

-

f *•

is m

Hf

_-

i

?

I

1

■ rv. ■ -k

m

|{priccD?sptny}}

75^

I-

{{priceDlsplay}}

■TSOOfc
"i

0.«D%.

%

r

01:29 PM

•5S.C0S!.

5i

DsyK^h

{{k‘vr52!v£-£ksDtspteyi} {{b igb $ 2vrepkr-0}sjj1 ay}}
J53 iS'ftfJt T.o*-f
?»>*#•

■5C'.dtoi
’.'7.5!).'

{{highOfeplsyO

i.

■ 100,00%

*■>: »:.

.':DC3

16.173.6
PjK.0

{{IcivDJspIny}}
Bay Lew

mera
IPS,BPS,

“

J

1250

16.1792
?xevi,ClcK!

- TrrwbTane

pBSSffig
= ■■

'

.

,-j §§§§§§

-7503‘k>
- -

■

i0.0m

-50D.O&S
2012

Wsa

2014

sats

/

(

APPENDIX J

. 06/20/20
TiiuSe IkiSc

»

f’fitws?!g*\tt

i4^a}Sh©rlf,St H#SIopo!js

TiLWSKHIfiHoafel a

**’ feaer MrSFIty Gftire
Accurate
1 Satfar Kotb
Lawyer
At the Court of Cassation

21, El Goumbouria St, Abdeen, Cairo
Tel: 23930919

14101 5/6/2016
On. this day, Monday 13/6/2016, at 2 pm
Pursuant to the request of Mr. Hany Sayed Ahmed Ahou Taleb, his elected
domicile being the Office ofKhaled Abdel Satfar Kotb, Lawyer, at 21, El
Goumliouria St. Abdeen, Cairo

Subject
Obligation and
Settlement Lawsuit

I Mohamed the Process Server of El Zeitoun Summary Court moved and
notified;
1- Mrs, Mona Mohamed Ahmed Mohamed Ahou Taleb
Addressing;
2~ Mr. Mohamed Ahmed Mohamed-Abon Taleb
Addressing:

Claimant’s Agent
(Signed)
Khalec! Abdel Sattar Kotb

Notified them at 10, El Lewaa* Hussein Refky, Apt. 7, Saray El Kobba, El
Zeitim Department.
And served them with notification, as follows:

Stamp of:
KSiaied Abdel Sattar Kotb
Lawyer
21, El Goumhouria St.

Subject
• On 10/6/2006 the Claimant issued the Power of Attorney No. 5864 £ for the
year 2006 Nasr City First Notary Office, in favor of to the First Respondent,
giving her the authority to manage his affairs and handle legal transactions
including selling.

Bar association stamps

« Whereas the Claimant owns the apartment No. 4. on the fifth floor, in the
building No. 25, Mecca el Mukarrama St. in Mohandessm, El Giza,
« And whereas the First Respondent granted, a. Power of Attorney to her father;
Mohamed. Ahmed Mohamed Abou Taleb; the Second Respondent,
registered under No. 859 for the year 2006, El Zeitun, in her capacity as the
Agent of the Claimant pursuant to the aforementioned Power of Attorney No.
5864 £ for the year 2006 Nasr City First.

hany sayed__syl__120?i6
1

APPENDIX K

| 3 JUL M

Authorship & Translatiors
Scientific Bureau
FOUAD NEMAN
14 (a)Sherlf,Sf. H@Siopofj@
Tti 22567808-2480621#
37. Kasr EINii St., Cairo
Tel: 23i§221|4

• And on 22 August 2006, the Second Respondent, in Ms capacity as the Agent of the
First Respondent, and the latter in her cacapity as the Agent of the Claimant (pursuant
to the aforementined two Powers of Attorney) sold the apartment referred to herewith
to Mr, Moustafa Gamal Abdel Kader Ibrahim, by virtue of the Provisional Sale
Contract dated 22/8/2006,.
Whereas the Fourth Article of the mentioned Contract stipulates that:
41 this sale was made against the total price of EGP 870.000 (eight hundred seventy
thousand Egyptian Pounds only) subject of the Contract, which the Second Party paid to
the First Party in cash. The signature of the First Party on this Contract is considered a
receipt against receiving the amount in. full:''.
* Whereas the two Respondents, being considered the Agents and Delegates of the
Claimant, received the mentioned amount, and did not hand it to the Claimant,.. and
till now they have not settled the accounts with him yet.
• And whereas the Claimant cancelled the Po wer of Attorney No. No. 5864 £ for the
year 2006 Nasr City First, issued by him to the First Respondent, pursuant to the
cancellation report authenticated under No. 3986 B for the year 2016 dated 30/4/2016
at Nasr City First Notary Office... the First Respondent was notified about this
cancellation pursuant to an official notice served to the Respondent on 23/5/2016.
Therefore
Whereas Article No. 705 of the Civil Code stipulates that:
'"The Agent shall provide the Principal with the necessary information on how far .he
has covered in executing the duties of the agency, and shall submit an account of if5.
Also. Article No. 706 of the Civil Code stipulates that:
“(1) The Agent shall not use the Principal’s property in Ms own interests.

hany sayed_sy!_ 120716
2

Autnorshfp & Translation
Scientific Bureau
in/

Csir“
Accural©

m

r
(x.)He shall bear iateresis on the amounts he used on behalf of himself from the time he
began using them. He shall also sustain interests on the amounts remaining due to him
out of the Agency s account, from the time lie is warned by notification to pay them.”
♦Therefore... whereas the two Respondents, who are the agents of the Claimant, sold
the apartment owned by the Claimant against the price of EGP 870,000, and the First
Respondent deposited it in her bank account since the date of sale; 22/8/2006,
* and whereas the Claimant is entitled, in this case to request from the two Respondents
the price of the sold apartment, its value amounting to EGP 870,000, in addition to the
interests due on this amount that the First Respondent used, from date of depositing it in
her bank account in 2006 till date of paying it to the Claimant.
* Moreover, the Claimant: is entitled to request from the two Respondents a statement of
account on the agency duties till date of its termination.
Accordingly
I, the above mentioned Process-Server, moved and served the two Respondents with
notification through copy of this Declaration and assigned them, to attend before North Cairo
.ourt of Fiist Instance (Circuit 62) Civil, Plenary North Cairo, its Headquarter located at
.
S<*uare’ El Wail-y Department, In Cairo at its Public Hearing convened on Thursday
14/7/2016 at exactly 8 am and after that, in order to hear the judgment:
First: Obligating the two Respondents jointly to pay to the Claimant the amount of
EGP 870,000 (eight hundred seventy thousand Egyptian Pounds only) plus the
interests due on this amount starting from 22/8/2006, till full payment In
accordance with the interest rate declared by the Central Bank of Egypt.
Second: Obligating the two Respondents to submit a statement of account cm the
agency duties from date of Its issuance fill its termination.
By obligating them to pay tire expenses and lawyer’s fees through summary enforcement of
judgment without bail.
By keeping all the rights,
For information,

Official seal ofNorth Cairo Court of First Instance

hany sayed_syl_120716
3

Authorship & Translation

1 3 JUL 2131

Scientific Bureau
FOUAP NEMAH
14 (a)Sherff»St» Heliopolis
Tel 22567808-2450S219
37. Kssr ElMif St, Cairo
T©1; 23Q3$134 .

